D-2010-015                             November 13, 2009




       DoD Civil Support During the 2007 and 2008
                 California Wildland Fires
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations

CAL FIRE              California Department of Forestry and Fire Protection
DCO                   Defense Coordinating Officer
FEMA                  Federal Emergency Management Agency
IG                    Inspector General
NIFC                  National Interagency Fire Center
USNORTHCOM            U.S. Northern Command
U.S.C.                United States Code
                                 INSPECTOR GENERAL 

                                 DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DRIVE 

                              ARLINGTON, VIRGINIA 22202-4704 


                                                                       November 13, 2009

MEMORANDUM FOR DISTRIBUTION

SUBJECT: DOD Civil Support During the 2007 and 2008 California Wildland Fires
        , (Report No. D-2010-015)

We are providing this report for review and comment. We considered management
comments from the Joint Staff, Office of the Secretary of Defense (Comptroller)/Chief
Financial Officer, U.S. Northern Command, the Assistant Secretary of Defense for
Homeland Defense and Americas' Security Affairs, and the U.S. Marine Corps on a draft
report when preparing the final repoli. We performed this audit at the request of the Joint
Staff.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. As a
result of management comments, we revised Recommendations B.l.c and B.3 .d.
Recommendation B.3.d is renumbered from draft Recommendation B.3.c. We also
added Recommendations B.3.c and B.3.e. We request additional comments fi'om the
Joint Staff on Recommendations B.1 and C.l. We request additional comments from the
U.S. Northern Command on Recommendation B.3. We considered the comments
received fi'om the Assistant Secretary of Defense for Homeland Defense and Americas'
Security Affairs partially responsive. We request additional comments from the Assistant
Secretary of Defense for Homeland Defense and Americas' Security Affairs on
Recommendations C.2.a, C.2.b, C.2.c, and C.2.d. Please provide comments by
January 12,2010.

If possible, send your comments in electronic format (Adobe Acrobat file only) to
audacm@dodig.mil. Copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the / Signed / symbol
in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
DISTRIBUTION:

CHAIRMAN, JOINT STAFF
UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL
   OFFICER
COMMANDER, UNITED STATES NORTHERN COMMAND
ASSISTANT SECRETARY OF DEFENSE FOR HOMELAND DEFENSE AND
   AMERICAS’ SECURITY AFFAIRS
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
   AND COMPTROLLER)
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
Report No. D-2010-015 (Project No. D2008-D000CG-0246.000)                           November 13, 2009


               Results in Brief: DOD Civil Support During
               the 2007 and 2008 California Wildland Fires
                                                            continue to coordinate with civil authorities and
What We Did                                                 review policies to determine whether situational
We answered Joint Staff concerns regarding the              awareness is required to complete the mission and
validation of requests for DOD support to civil             if it is obtained in the most efficient manner. The
authorities during the 2007 southern California             U.S. Northern Command should also request
wildland fires. Specifically, we reviewed DOD               funds for DOD assets performing situational
response activities with regard to authorities,             awareness of civil support missions. The
validation of requests, and financial management            Assistant Secretary of Defense for Homeland
pertaining to support rendered. We also reviewed            Defense and Americas’ Security Affairs should
response activities associated with the 2008                review DOD policies for civil support.
northern California wildland fires. We examined
the DOD response during the 2007 and 2008                   Management Comments and
California wildland fires and developments since            Our Response
those incidents.                                            The Vice Director, Joint Staff, provided partially
What We Found                                               responsive comments on Recommendations B.1
                                                            and C.1. We partially agreed with his comments
DOD provided support during the 2007 southern               and revised our recommendation. The Under
California wildland fires that was either available         Secretary of Defense, Deputy Chief Financial
through other sources or not requested by civil             Officer, commented and agreed with Recom-
authorities. We estimated that DOD provided                 mendation B.2. No further comment is required.
about $3 million in support that was unnecessary            The Inspector General, U.S. Northern Command,
for the response. There are weaknesses in DOD’s             provided partially responsive comments on
internal controls. DOD’s policies do not require            Recommendation B.3. We partially agreed with
fiscal accountability for units providing situational       his comments and revised our recommendation.
awareness in support of U.S. Northern Command.              We added Recommendations B.3.c and B.3.e and
The Navy and Marine Corps properly followed                 addressed them to the U.S. Northern Command.
existing guidance when performing Task Force                The Assistant Secretary of Defense for Homeland
Bulldozer under Immediate Response Authority,               Defense and Americas’ Security Affairs
but weaknesses in the guidance exist. There are             commented and did not agree with
weaknesses in DOD policy for reimbursement,                 Recommendations C.2.a, C.2.b, C.2.c, and C.2.d.
closeout of mission assignments, and oversight of           We considered the comments nonresponsive and
DOD funds used to complete U.S. Northern                    request further comments on the final report. The
Command’s civil support mission. We discuss                 Assistant Secretary of Defense for Homeland
corrective actions since the 2007 southern                  Defense and Americas’ Security Affairs agreed
California wildland fires in Appendix F.                    with Recommendation C.2.e. No further
What We Recommend                                           comment is required. We also received
                                                            unsolicited comments from the U.S. Marine
The Chairman, Joint Staff, should codify the                Corps. We request comments in response to
Defense Coordinating Officer program. The                   recommendations B.1, B.3, C.1, and C.2.a–C.2.d
Office of the Secretary of Defense (Comptroller)/           by January 12, 2010. Please see the
Chief Financial Officer should issue policy                 recommendations table on the back of this page.
requiring units to report financial matters through
U.S. Northern Command until reimbursement is
completed. The U.S. Northern Command should
                                                        i
Report No. D-2010-015 (Project No. D2008-D000CG-0246.000)            November 13,
2009

Recommendations Table
Management                       Recommendations            No Additional Comments
                                 Requiring Comment          Required
Chairman, Joint Staff            B.1, C.1

Under Secretary of Defense                                  B.2
(Comptroller)/Chief Financial
Officer
Commander, U.S. Northern         B.3
Command
Assistant Secretary of Defense   C.2.a–C.2.d                C.2.e
for Homeland Defense and
Americas’ Security Affairs

Please provide comments by January 12, 2010.




                                               ii
Table of Contents

Introduction	                                                                      1


      Objectives                                                                   1

      Background                                                                   1

      Review of Internal Controls                                                  8


Finding A. Joint Staff Concerns and Responses 	                                   10



Finding B. Use of DOD Support 	                                                   15 


      Recommendations, Management Comments, and Our Response 	                    25 


Finding C. DOD Policy for Civil Support	                                          29 


      Recommendations, Management Comments, and Our Response 	                    34 


Appendices

      A. Scope and Methodology 	                                                  39 

      B. Prior Coverage 	                                                         43 

      C. 	Emergency Support Functions                                             46 

      D. 	Defense Support of Civil Authorities Approval and Performance Process   47 

      E. 	2007 Mission Assignments                                                48 

      F. 	DOD Corrective Actions Resulting From the 2007 California 

          Wildland Fires                                                          51 


Management Comments

      Joint Staff                                                                 53 

      Under Secretary of Defense (Comptroller)/Chief Financial Officer            56 

      U.S. Northern Command                                                       58 

      Assistant Secretary of Defense for Homeland Defense and Americas’           62 

          Security Affairs 

      U.S. Marine Corps 	                                                         67 

      U.S. Marine Corps Action Officer Followup 	                                 72


Introduction
Objectives
The audit addressed Joint Staff concerns that resulted from DOD support to civil
authorities during the 2007 southern California wildland fires. The Joint Staff requested
that we review DOD response activities with regard to authorities, request validation, and
fiscal management and that we complete a comprehensive review of DOD’s policies and
procedures as they pertain to the 2007 southern California wildland fires and the three
specific concerns that we discuss in Finding A. Additionally, we reviewed DOD support
to civil authorities during the 2008 northern California wildland fires. See Appendix A
for the scope and methodology and Appendix B for prior coverage related to the
objectives.

Background
The Vice Director, Joint Staff, requested DOD Inspector General (IG) support regarding
the wildland fire response activities during the 2007 southern California wildland fires.
We performed this audit in response to the Joint Staff request. Specifically, the Joint
Staff requested a review of the following actions:

        situations where DOD provided assets to the incident rather than waiting for a
         request from civil authorities, particularly the circumstances surrounding the
         aerial images 1 that DOD provided during the 2007 southern California wildland
         fires;
        the events surrounding Task Force Bulldozer; and
        the financial management of support rendered during the 2007 southern California
         wildland fires.

Finding A specifically discusses the Joint Staff concerns and our responses. Finding B
and Finding C provide greater detail of our audit of the Joint Staff concerns, as well as
our recommendations to improve the performance and reporting of civil support
functions.

The request from the Joint Staff originated from the results of DOD IG Report No.
D-2008-0130, “Approval Process, Tracking, and Financial Management of DOD Disaster
Relief Efforts,” September 17, 2008, which covered the mission assignment process,
financial management, and improvements made to disaster response after the Hurricane
Katrina relief efforts.




1
  We use the term “aerial image” or “imaging” throughout the report to describe various capabilities
involving aircraft or satellites that provide pictures, infrared, video, and other forms of images.

                                                     1
Agencies Providing Firefighting Support
DOD supported multiple agencies during the 2007 southern California wildland fires
depending on the location of the fires and who requested the support. Figure 1 shows the
process through which DOD assets are requested by these agencies when wildland fires
occur on State or Federal lands.

Figure 1. Process for Requesting DOD Assets


                                         Fire on                                                         Fire on State
                                       Federal Land                                                          Land




                                                     Consequence                                                             Consequence
             Firefighting Resources                                            Firefighting Resources
                                                 Management Resources                                                    Management Resources
                    Needed1                                                           Needed1
                                                       Needed1                                                                 Needed1




           National Interagency Fire               Federal Emergency                               Local Responders2
                    Center3                       Management Agency3



                                                                              California Department of
                                                                                  Forestry and Fire
                                                                                     Protection



              Have state resources
             been fully committed?
                                                                                 Requests for assistance from Federal Agencies are worked
                                                                                   through the California Office of Emergency Services.




                                                                                                   California Office of
                                                                                                   Emergency Services
          No                          Yes




                           Emergency Support                                      National Interagency
    State Responders                                                                                                       Federal Emergency
                             Function #4                                              Fire Center3                        Managament Agency3




                                                                        DoD

1
  Firefighting resources consist of assets used for stopping, delaying, or redirecting wildland fires;


consequence management resources are those assets designed to improve the quality of life for those 

already affected by the disaster event. 

2
  Local responders are the responders on any level below the State responders, such as city and county fire


departments. The local responders are the first responders on scene when a fire occurs.


3
  Support can also be coordinated with Geographic Area Coordination Centers prior to being requested from


DOD. 


                                                                        2
The California Office of Emergency Services coordinates the firefighting response efforts
of State and local agencies within California. The California Department of Forestry and
Fire Protection (CAL FIRE) is responsible for the fire protection and stewardship of
privately-owned wildlands and provides emergency services to counties within
California. The National Interagency Fire Center (NIFC) provides assets for managing
Federal support to firefighting efforts and can request support from other Federal
agencies in accordance with section 1535, title 31, United States Code, “Economy Act,”
(31 U.S.C. 1535). NIFC can also provide resource support to the affected State in the
event that State resources become overwhelmed. The Federal Emergency Management
Agency (FEMA) provides humanitarian support and consequence management to the
affected State in accordance with the “Robert T. Stafford Disaster Relief and Emergency
Assistance Act,” (the Stafford Act), Public Law 93-288, as amended, 42 U.S.C. 5121–
5207. DOD can provide support during firefighting emergencies through immediate
response actions, mutual aid agreements, and requests for assistance from other Federal
agencies.

California Office of Emergency Services
        The California Office of Emergency Services ensures the State of California is
ready and able to mitigate against, prepare for, respond to, and recover from the effects of
emergencies that threaten lives, property, and the environment. The California Office of
Emergency Services coordinates the activities of all State agencies relating to preparation
and implementation of the State Emergency Plan and coordinates the response efforts of
State and local agencies to ensure maximum effect with minimum overlap and confusion.
Additionally, the California Office of Emergency Services coordinates the integration of
Federal assets through NIFC for firefighting support and FEMA for humanitarian efforts
for State and local response and recovery operations.

California Department of Forestry and Fire Protection
         CAL FIRE is the State of California’s responsible agency for the administration
of the State’s private forests. The agency provides firefighting capability to prevent and
extinguish fires in the State’s forests. CAL FIRE submits requests for additional
resources to the California Office of Emergency Services. CAL FIRE is a first responder
for all fires in the State of California.

NIFC
        NIFC provides mobilization and coordination of assets for wildland firefighting
and related incidents throughout the United States. NIFC coordinates regional
firefighting support through Geographic Area Coordination Centers that utilize the
interagency coordination concept. When requested, DOD support to NIFC is provided
under the Economy Act. NIFC implements DOD support through the Economy Act and
an interagency agreement between DOD, the Department of the Interior, and the
Department of Agriculture. DOD uses a different process when requesting
reimbursement from NIFC because the support is provided under the Economy Act. We
did not identify significant concerns with DOD reimbursement under Economy Act
requests. NIFC provides guidance and planning information for mobilization of DOD
resources in its Military Use Handbook and the Modular Airborne Firefighting System

                                             3


Operation Plan. NIFC has five preparedness levels based on wildland fire activities and
resource availability throughout the country. DOD considers the NIFC preparedness
level when anticipating requests for assistance.

The Economy Act
                The Economy Act authorizes one agency to request goods or services
from another agency. The agency that requests the services pays the total costs of the
services to the agency filling the requests. The Economy Act specifies that the requesting
agency obligates money to the agency filling the request when they agree on an order.
The agency filling the request does not incur its own obligations as a result of the request.
The Economy Act serves as the authority for funding transactions between Federal
agencies unless more specific authority for such transactions exists. Any Federal agency
can request DOD support under the Economy Act. If the President declares a disaster,
the Stafford Act becomes effective.

Military Use Handbook and Modular Airborne Firefighting System
Operating Plan
               NIFC has developed the Military Use Handbook to use as a guide to
Federal agencies that use DOD ground firefighting resources. NIFC has developed the
handbook and uses it to order and equip DOD ground units. The Modular Airborne
Firefighting Systems Operating Plan provides guidance on ordering, utilizing, and
equipping C-130 aircraft. NIFC ensures that all commercial air tankers are committed to
other incidents or unable to meet the requirements of the operations prior to requesting
DOD air assets.

Interagency Agreement for the Provision of Temporary Support
During Wildland Firefighting Operations
               DOD entered into and updated an interagency agreement with the U.S.
Forest Service and the Department of Agriculture in 2005. In the agreement, DOD
agrees to provide fire protection assistance when DOD is able to supply the requested
assets. The agreement also outlines the use of the C-130 aircraft equipped with U.S.
Forest Service-owned Modular Airborne Firefighting Systems for use during temporary
support.

FEMA
        FEMA’s mission is to reduce the loss of life and property and protect the Nation
from all hazards, including natural disasters, acts of terrorism, and other man-made
disasters, by leading and supporting the Nation in a risk-based, comprehensive
emergency management system of preparedness, protection, response, recovery, and
mitigation. The Stafford Act, as amended, constitutes the statutory authority for most
Federal disaster response activities as they pertain to FEMA and its programs.
Reimbursement, although not required, is generally provided for incremental costs
associated with support provided. We discuss concerns regarding the reimbursement
process under the Stafford Act throughout the report. FEMA has developed 10 regions
covering the U.S. and its territories. FEMA Region IX is responsible for the areas
affected by the 2007 and 2008 California wildland fires. FEMA uses 15 Emergency
                                             4
Support Functions to manage disaster relief efforts. Emergency Support Function 4 is the
support annex for firefighting. For the specific responsibilities of each Emergency
Support Function identified in the National Response Plan, see Appendix C.

The Stafford Act
                The Stafford Act provides an orderly and continuing means of assistance
by the Federal Government to State and local governments to help alleviate the suffering
and damage that results from disasters. The Stafford Act provides a system of emergency
preparedness to protect life and property in the United States from hazards and to place
the responsibility of assistance in a disaster on the Federal Government, States, and their
political subdivisions. The President may direct any Federal agency to use its authorities
and assets in support of State and local assistance efforts. Any Federal agency assisting
FEMA may seek reimbursement from FEMA for incidental costs incurred for the
assistance provided when funds are not available through other sources.

The National Response Plan
               The National Response Plan provided the framework for management of
domestic incidents. The National Response Framework supersedes the National
Response Plan and was implemented in January 2008. 2 Under the National Response
Plan, the degree of Federal involvement in incident response depended mainly upon
specific Federal authority or jurisdiction, but was also based largely on the needs or
requests of State, local, or tribal governments for external support. The National
Response Plan encouraged coordination among all levels of Government and non-
Government responders helping to meet incident response requirements. The National
Response Plan indicated that incident response should be managed at the lowest level
possible.

Emergency Support Function 4
                Emergency Support Function 4 Firefighting Annex is for managing and
coordinating Federal firefighting activities. Firefighting agencies at all levels mobilize
firefighting assets to accomplish the function. Emergency Support Function 4 states that
all DOD personnel and resources are to be requested through the National Interagency
Coordination Center, which is located at NIFC. DOD supports the Department of
Agriculture and the U.S. Forest Service, which are the primary agencies responsible for
firefighting.

DOD Response During a Firefighting Emergency
The following are means by which DOD can become involved in civil support to
firefighting efforts. For an overview of the emergency response process, see
Appendix D.



2
 The changes reflected in the National Response Framework improve upon the guidance provided in the
National Response Plan without altering the basic disaster response structure.


                                                  5
Immediate Response Authority
       Under imminently serious conditions and when time does not allow approval
from higher headquarters, DOD Directive 3025.1, “Military Support to Civil
Authorities,” January 15, 1993, authorizes DOD commanders to provide support to an
emergency under Immediate Response Authority. DOD commanders must receive a
request from civil authorities before providing immediate response support. DOD
Directive 3025.1 requires that responders report immediate response actions by the most
expeditious means available and seek approval and additional authorizations as needed.

Mutual Aid Agreements and the Fire and Emergency
Services Program
         Section 1856(a), title 42, United States Code, “Reciprocal Fire Protection
Agreements,” January 3, 2007, authorizes DOD to enter into reciprocal fire protection
agreements with fire organizations maintaining fire protection facilities in and near the
vicinity of property of the United States. Mutual aid agreements require a waiver of
liability and provide reimbursement for support at cost. DOD Instruction 6055.06, “DOD
Fire and Emergency Services Program,” December 21, 2006, instructs DOD
Components, operations, activities, and installations to provide fire and emergency
services and capabilities under mutual aid agreements, host nation support agreements,
and Defense Support of Civil Authorities.

Requests for Assistance From NIFC
        Based upon the need for DOD assistance, NIFC requests DOD support through a
written request for assistance sent through the Defense Coordinating Officer (DCO) if
one is assigned or through other established channels. The DCO validates and then
forwards the request to the Assistant Secretary of Defense for Homeland Defense and
Americas’ Security Affairs and the Joint Staff for staffing and coordination before the
request is provided to the Secretary of Defense for approval.

Mission Assignments From FEMA
        FEMA issues mission assignments to Federal agencies requesting that the
agencies complete certain tasks. DOD refers to mission assignments as “requests for
assistance.” Based upon the need for DOD assistance, FEMA requests DOD support
through a request for assistance sent to the DCO located at the FEMA region or Joint
Field Office closest to the event. The DCO validates the request and then forwards the
request to Assistant Secretary of Defense for Homeland Defense and Americas’ Security
Affairs and the Joint Staff for staffing and coordination and also to the U.S. Northern
Command (USNORTHCOM) for parallel planning and the creation of a “request for
forces.” A request for forces is DOD’s established method for combatant commanders to
request assistance from other combatant commanders. Upon Secretary of Defense
approval, Joint Staff personnel create an execution order assigning units to
USNORTHCOM and place the units under the operational control of USNORTHCOM.
For a listing of the mission assignments FEMA issued during the 2007 southern
California wildland fires, see Appendix E.



                                           6
Joint Publication 3-28, “Civil Support”
        Joint Publication 3-28, “Civil Support,” September 14, 2007, provides
overarching guidelines and principles to assist commanders and their staffs in planning
and conducting joint civil support operations. The Joint Publication provides guidance
for the exercise of authority by combatant commanders and other joint force commanders
and prescribes joint policy for operations, education, and training. The Joint Publication
provides Military guidance for use by the Services in preparing their appropriate plans.
The Joint Publication is authoritative in nature and should be followed when possible, but
also allows combatant commanders to deviate in extreme circumstances.

USNORTHCOM Concept Plan 2501, “Defense Support of
Civil Authorities”
       USNORTHCOM Concept Plan 2501, “Defense Support of Civil Authorities,”
April 11, 2006, was a plan created to support the employment of DOD forces providing
Defense Support of Civil Authorities assistance in accordance with applicable DOD
Directives and policy. The purpose of the Concept Plan is to ensure that commanders can
execute a timely, safe, effective, and efficient response to approved requests for Defense
Support of Civil Authorities support. USNORTHCOM routinely updates the Concept
Plan and most recently issued Concept Plan 3501-08 on May 16, 2008.

The 2007 Southern California Wildland Fires
The 2007 southern California wildland fires began burning across southern California on
October 20, 2007. Twenty-three active fires burned a total of 517,267 acres, destroyed
3,204 structures, and caused 10 fatalities. The President declared a state of emergency on
October 23, 2007, and the fires were contained by November 9, 2007. DOD provided
the following support to civil authorities during the fires:

      two DCOs and staff, including Defense Coordinating Elements, one to the Joint
       Field Office in Pasadena and one to NIFC;
      six Modular Airborne Firefighting System-equipped C-130 aircraft to support
       NIFC;
      Navy and Marine Corps helicopter support through the Helicopter Coordination
       Center;
      a Federal Operational Staging Area at March Air Reserve Base;
      staging of the Mobile Aeromedical Staging Facility for patient movement;
      fire breaks completed by Task Force Bulldozer modules I and II;
      aerial images of active fires;
      various support to local and State of California responders through mutual aid
       agreements; and
      cots provided by the Navy and Marine Corps, as illustrated in Figure 2.

DOD provided additional resources that are not identified or discussed in this report.




                                             7


       Figure 2. A Sailor Prepares Cots for Potential Evacuees




       Source: www.northcom.mil



The 2008 Northern California Wildland Fires
The 2008 northern California wildland fires began on June 20, 2008, as the result of a
severe thunderstorm that caused 6,000 lightning strikes. About 2,096 active fires burned
1.2 million acres, destroyed 511 structures, and caused 15 fatalities. The President
declared a state of emergency on June 28, 2008, and DOD provided support to the
firefighting effort until August 5, 2008. DOD provided the following support to the
effort:

      a DCO and Defense Coordinating Element to FEMA Region IX;
      a DCO and Defense Coordinating Element to NIFC;
      eight Modular Airborne Firefighting System-equipped C-130 aircraft and
       helicopter support from the Navy and Marine Corps to support NIFC; and
      aerial imagery of active fires.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. DOD controls over the
financial management of the Defense Support of Civil Authorities process, which can
potentially cost DOD millions of dollars for the use of assets that were not requested by
civil authorities, are ineffective. Implementing Recommendations B.1, B.2, and B.3 will
correct these weaknesses. Also, DOD guidance resulted in an ineffective situational
awareness of DOD decisionmaking authorities for DOD forces. Implementing

                                            8
Recommendations C.1 and C.2 will correct these weaknesses. A copy of the report will
be provided to the senior officials responsible for internal controls in the Joint Staff;
Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer;
Commander, U.S. Northern Command; and the Office of the Assistant Secretary of
Defense for Homeland Defense and Americas’ Security Affairs.




                                            9


Finding A. Joint Staff Concerns and
Responses
The Vice Director, Joint Staff, requested that the DOD IG review incident response
activities during the 2007 southern California wildland fires. Specifically, the Joint Staff
expressed concerns about and requested that we review the following:

       • situations where DOD provided assets to the incident rather than waiting for a
         request from civil authorities,
       • compliance with laws and procedures for Task Force Bulldozer, and
       • overall financial management of the DOD response.

The concerns included in the Vice Director’s request are discussed below.


Joint Staff Concern 1 – Use of DOD Assets
The Joint Staff requested that we review instances where DOD, and specifically
USNORTHCOM, used DOD assets for the California wildland fires that civil authorities
did not request. The Joint Staff concern focused on the USNORTHCOM Situational
Awareness Team and three mission assignments for aerial imaging that DOD provided
during the response. FEMA issued two mission assignments for aerial imaging
capabilities that were cancelled shortly after issuance. USNORTHCOM acted on a third
mission assignment that FEMA issued without providing funding for the cost of the
service. The Joint Staff was concerned that officials at USNORTHCOM were operating
under the concept that DOD’s best capabilities should be provided to FEMA, rather than
the minimum capabilities necessary to fulfill the request, as required by existing
guidance.

DOD IG Response
USNORTHCOM provided assets composed of two teams during the 2007 southern
California wildland fires that were not requested by civil authorities, and aerial imaging
aircraft that was based on a civil request, but was not compliant with Federal policy.
California, FEMA, and USNORTHCOM personnel discussed the pros and cons that
resulted from the DOD assets being sent to the area. Although the DOD support assisted
with coordination and awareness between USNORTHCOM and the civil authorities, it
also created a logistical burden in the response area and the use conflicted with already
established processes.




                                             10


DOD used assets, such as the Command Assessment Element 3 and the Operational
 Command Post, 4 during the 2007 southern California wildland fire response that were
not provided in direct support of civil requests. Instead, USNORTHCOM used these
assets for its own situational awareness. The Command Assessment Element used during
the 2007 southern California wildland fires became known as the USNORTHCOM
Situational Awareness Team. USNORTHCOM was authorized to use these assets.
However, based on interviews with both DOD and civil authorities, we determined that
the extent of the use of the assets was not an effective use of DOD assets. DCOs
explained that civil authorities realize the need for command-type personnel associated
with DOD support. However, civil authorities will generally not issue requests for this
support. DOD potentially has a need for the assets when it provides civil support. We
determined that DOD’s current policies do not require fiscal accountability of the support
or allow senior leadership to make informed decisions on the efficiency of the assets.
Finding B discusses the need for USNORTHCOM to examine the efficiency of methods
used to make command decisions or obtain situational awareness requirements and use
existing resources when possible.

We determined that USNORTHCOM actions did not contribute to the cancellation of the
two mission assignments for aerial imagery. USNORTHCOM acted on a third mission
assignment that FEMA issued without providing funds to DOD to complete the support.
However, DOD actions on the third mission assignment were not compliant with Federal
policies. FEMA personnel attributed the two cancelled mission assignments to an
ambiguous scope of work and miscommunication between FEMA Headquarters and the
regional offices. DOD eventually provided aerial imaging under the authority of a
Federal Operations Support mission assignment in one case. However, DOD provided
support directly to California responders, which requires a Direct Federal Assistance
mission assignment. Federal Operations Support mission assignments do not require
States to share the support costs and do not include State assurances to “hold and save the
United States free from damages due to the requested work” because they are not
initiated by States. Direct Federal Assistance also requires States to justify why the
support cannot be performed or contracted before requesting support from the Federal
Government. Because the mission assignment originated above the Joint Field Office,
the State and Federal officials most familiar with the required disaster response did not
have input into this mission assignment or the need for DOD to provide the support. If
officials from FEMA Region IX or NIFC had been responsible for processing this
mission assignment, they would have determined that the support was either not needed
or obtainable through other methods. Additionally, the DCO did not have the
opportunity to validate this request against established criteria. For additional
information regarding this Joint Staff concern, see Finding B.


3
  The Command Assessment Element is a rapidly deployable, tailored package designated to give the
Commander of USNORTHCOM operational- and tactical-level environmental awareness and determine
additional capability that may be needed for an actual or potential Homeland Defense or Civil Support
event.
4
  The Operational Command Post is a group of Military personnel whose mission is to support the lead
Federal agency by providing transportation, engineer support, meals, tents, and any other approved Military
capability that is needed.

                                                    11
Joint Staff Concern 2 – Task Force Bulldozer
The Joint Staff requested that we review the events surrounding Task Force Bulldozer to
determine whether DOD responders followed applicable rules and procedures. The Joint
Staff concern focused on the immediate response actions of Task Force Bulldozer, which
involved Navy and Marine Corps personnel using bulldozers to limit the fire damage.
The Joint Staff also requested that we determine whether commercial contractors could
have completed the tasks that DOD responders completed under Task Force Bulldozer.

DOD IG Response
Navy Region Southwest and Marine Corps Installations West followed existing guidance
and procedures during Task Force Bulldozer with one exception. They did not obtain a
written request to follow up the verbal request from civil authorities. However, because
the local civil officials we interviewed confirmed that DOD support was requested, we
believe that the DOD response was not materially affected by the lack of a written
request. Both the Navy and Marines coordinated immediate response support through
their higher headquarters as required by Deputy Secretary of Defense memorandum,
“Reporting ‘Immediate Response’ Requests from Civil Authorities,” April 25, 2005, and
generally followed immediate response guidance published in DOD Directive 3025.1.
On October 26, 2007, the USNORTHCOM Judge Advocate determined that immediate
response requirements were met. Our audit confirmed this assessment.

CAL FIRE incident commanders provided a listing of available private contractors that
perform work similar to the assistance provided through Task Force Bulldozer, but noted
that no contractors were willing to provide assistance in a timely manner. Additionally,
some contractors did not have proper equipment to safely perform work during active
fires and could only be contracted to perform preventative maintenance. Based on our
interviews with Navy Region Southwest personnel, we concluded that Navy Region
Southwest did consider the availability of contractors before agreeing to provide support
and determined that contractors were not available within the time frames required.

Although the Task Force Bulldozer response was generally in compliance with rules and
procedures, we identified areas where DOD policy, coordination, and procedures can be
improved. See Finding C for more information regarding immediate response policy,
reporting, and transition.

Joint Staff Concern 3 – Financial Management
The Joint Staff requested that we assess the overall financial management of the DOD
response during the 2007 southern California wildland fires. The Joint Staff did not
identify specific concerns on this topic, but requested that we assess the financial
responsibility of the DOD response.

DOD IG Response
DOD does not have adequate policy for reimbursement and timely financial closeout of
mission assignments or oversight of DOD funds used to complete the USNORTHCOM
mission. Additionally, the Joint Staff issued the 2007 Defense Support to Civil

                                           12
Authorities execution order and a 2007 southern California wildland fires execution order
that included instructions for capturing and reporting some costs for civil support, but we
determined that this order did not require all DOD expenditures during the 2007 southern
California wildland fire response to be captured and reported.

Reimbursement and Closeout of Mission Assignments
         Based on current DOD policy, USNORTHCOM has no authority to ensure that
reimbursement requests are submitted in a timely manner or in accordance with FEMA
criteria. Normally, the units performing civil support submit requests for reimbursement
directly to FEMA without DOD oversight or review. Since DOD had no central point to
review the requests, the units may not always bill based on the FEMA operational
requests. Both USNORTHCOM and the DCO are knowledgeable of operational
requirements of the FEMA mission assignments and could provide reviews, which could
result in better quality controls for DOD billing and a reduction of bills that FEMA
rejects for reimbursement. A central review point could also provide a means for timely
closeout of the mission assignments.

DOD Funds Used to Complete USNORTHCOM’s Mission
        USNORTHCOM has inadequate visibility of the funds used by DOD assets used
to complete its civil support mission. USNORTHCOM “anticipates and conducts . . .
civil support operations within the assigned area of responsibility.” To complete this
mission, USNORTHCOM routinely directs requested forces to perform missions. In
many cases, it does not provide funding to units for this support. Because
USNORTHCOM does not provide funds, units do not report the costs of the
USNORTHCOM-requested support back to USNORTHCOM. Without funding data, the
Commander, USNORTHCOM; other DOD senior leaders; and Congress cannot make
informed decisions regarding the effects of DOD’s civil support mission on DOD
appropriations. The need to establish funds and accountability for combatant
commanders performing civil support missions is further discussed in Finding B.

Standing Defense Support of Civil Authorities Execution Order and
the 2007 Joint Staff Fire Execution Order
         The Joint Staff issued a standing execution order on June 8, 2007, to provide a
framework for using resources and authorities in support of civil authorities. This order
required the Services providing civil support to report costs as well as USNORTHCOM
to forward an annual financial report. During the 2007 southern California wildland
fires, the Joint Staff also issued an execution order specifically for the wildland fires that
included a modification that required USNORTHCOM to track costs associated with
assets deployed through the use of a request for forces. However, we determined that this
order did not require USNORTHCOM to track costs associated with the Operational
Command Post or the Command Assessment Element because they were not deployed
through a request for forces. Additionally, the modification required units providing
immediate response to submit reports to USNORTHCOM. However, the Joint Staff was
unaware of any reports completed after issuing the modification. USNORTHCOM
distributes and tracks reimbursable budget authority for DOD support under FEMA


                                             13


mission assignments but is not required to track the cost of support provided to NIFC nor
the cost of support completed under Immediate Response Authority.

Summary
We identified weaknesses in DOD policies, procedures, and processes based on our
review of the Vice Director, Joint Staff, concerns. However, we determined that
USNORTHCOM and other DOD Components that provided civil support that was the
basis for the concerns, were generally in compliance with existing DOD guidance.
However, the guidance is not adequate. USNORTHCOM’s use of the Command
Assessment Element and Operational Command Post was allowable, but the extent of the
use was not the best use of DOD resources. DOD’s guidance on obtaining situational
awareness and establishing command and control of DOD resources providing civil
support needs strengthening so that leaders can make informed decisions on the
efficiency of the Operational Command Post and Command Assessment Element.
USNORTHCOM provided aerial images based on a valid civil request, but current DOD
policy does not require requests for assistance to always be validated by the DCO at the
Joint Field Office. If DOD validated the request at the Joint Field Office level, the
mission may have been revised to better fit the needs and intent of civil authorities. The
Navy and Marine Corps prepared to provide immediate response through Task Force
Bulldozer that was properly reported to higher headquarters based on DOD guidance, but
the current DOD guidance did not require the Service to report preparation for immediate
response to USNORTHCOM or the Joint Staff in a timely manner. Additionally, DOD’s
financial management of civil support operations does not always ensure proper visibility
of funds used in civil support missions or timely closeout of mission assignments. We
discuss the Vice Director’s concerns in greater details and our recommendations to
strengthen policy regarding DOD’s civil support mission throughout this report.




                                           14


Finding B. Use of DOD Support
U.S. Northern Command used assets during the 2007 southern California wildland fires
and the 2008 northern California wildland fires that were either available through other
sources or not formally requested. This occurred because USNORTHCOM:

   		 coordinated directly with FEMA Headquarters to provide support, rather than a
       request for assistance being coordinated between FEMA Region IX officials and
       the FEMA Region IX DCO;
    used assets for situational awareness rather than for disaster assistance; 

    did not properly evaluate the requirements of the mission assignment; and 

    did not provide funds for all assets it directed to the disaster area. 


As a result, we estimated USNORTHCOM unnecessarily used at least $3 million for
support that potentially could have been provided by existing DOD assets, other agencies
already in the disaster area, or through contracts. The estimate is limited because all
costs of providing support were not tracked.

Issues With Asset Usage
USNORTHCOM used assets during the 2007 southern California and the 2008 northern
California wildland fires that were not formally requested or necessary for relief efforts.
USNORTHCOM:

      used aerial imaging platforms that duplicated the capabilities of assets already
       available to the State of California and NIFC,
      stood up the Command Assessment Element and Operational Command Post that
       were not formally requested by civil authorities or required by the situation, and
      deployed the Mobile Aeromedical Staging Facility when the intent of the mission
       assignment was for planning rather than deployment.

In addition, the Air Force did not track flight hours associated with aerial imaging
provided to USNORTHCOM in 2008. A reliable estimate of the cost of the imagery
cannot be calculated since the flight hours were not tracked.

USNORTHCOM Decisions to Use Specific DOD Assets
USNORTHCOM used assets during the 2007 and 2008 California wildland fire
responses in a manner that resulted in unnecessary costs to DOD. During the 2007
southern California wildland fires, USNORTHCOM and FEMA Headquarters
coordinated support for aerial imaging rather than processing the request through FEMA
Region IX and the DCO. USNORTHCOM also made the decisions to use assets such as
the Command Assessment Element and Operational Command Post for DOD’s own
benefit rather than basing the use on civil requests. USNORTHCOM leaders used the
assets without consulting other parties within DOD that could have provided input on
whether the resources were needed to complete the civil support mission.

                                             15
USNORTHCOM was authorized by the June 8, 2007, Standing Defense Support of Civil
Authorities Execution Order to use these assets. However, based on interviews with both
DOD and civil authorities, we determined that the extent the assets were used was not an
effective use of DOD funds. In 2008 the Air Force used aerial imaging assets and
provided the aerial images to USNORTHCOM for situational awareness rather than for
direct disaster assistance. Additionally, during the 2007 response, USNORTHCOM did
not properly evaluate the requirements of a mission assignment, and unnecessarily
deployed the Mobile Aeromedical Staging Facility. USNORTHCOM is not responsible
for funding assets that are sent to the disaster area. As a result, costs are not considered
as a significant factor when making decisions to use assets.

Costs of Assets Used by USNORTHCOM
USNORTHCOM used assets in response to the 2007 southern California wildland fires,
even though the support potentially could have been completed by existing DOD
resources, other agencies already in the disaster area, or through contracts. We calculated
the cost of the assets unnecessarily used to be at least $3 million. We calculated the costs
of each of these assets based on information from documentation we obtained from U.S.
Army North, U.S. Air Force North, FEMA, and USNORTHCOM. DOD also used the
capability known as Eagle Vision for 8 hours during the 2007 southern California
wildland fires, but we cannot estimate the cost for the capability because the number of
images produced using the capability was not known and the images cost between $3,000
and $6,500 each. Table 1 shows the estimated costs of the unnecessary assets
USNORTHCOM sent to the disaster area in 2007, which total about $3 million as
estimated by the audit team.

                 Table 1. Total Estimated Unnecessary Costs Incurred by DOD
                   for the 2007 Southern California Wildland Fire Response
Type of Asset                                                             Total Cost*
Aerial Imaging                                                                $2,362,398
Command Assessment Element and Operational Command Post                          357,567
Mobile Aeromedical Staging Facility                                              363,630
                                                                Total         $3,083,595
*
    Total cost is an estimate calculated by the audit team.

An estimate of the total cost of aerial imaging assets used in 2008 cannot be calculated,
because the units that provided the support did not track their flight hours used for civil
support purposes, but instead listed them as training missions.

Support Not Requested Through FEMA Region and DCO
DOD provided aerial imaging support during the 2007 southern California wildland fires
that did not originate through established procedures for requesting DOD support.
Instead, USNORTHCOM and FEMA Headquarters originated the request.
USNORTHCOM received a non-reimbursable Federal Operations Support mission
assignment from FEMA to demonstrate the aerial imaging capabilities of DOD. During

                                                         16


the Federal response to wildland fires, NIFC, rather than FEMA, is responsible for
managing Federal assets. FEMA supports NIFC and provides consequence management.
The aerial imaging capabilities USNORTHCOM used provided images of ongoing fires
for state responders. Neither the State of California nor NIFC requested the aerial
imaging support. The DCO did not validate the request because the mission assignment
that was issued by FEMA for the aerial imaging support was not coordinated by the
officials at FEMA Region IX, but instead was approved by an official at FEMA
Headquarters. NIFC did not issue a request for aerial imaging capabilities or agree to
fund DOD aerial imaging support during the operations. The request for asset support
should have been initiated by the State of California through FEMA or NIFC. Since
NIFC could have provided the necessary imaging, the DOD support was not needed.
Figure 3 is an example of the imagery obtained by DOD from a P-3 aircraft during the
2007 southern California wildland fires.

       Figure 3. Video From P-3 Aircraft of a Wildland Fire at Night




         Source: www.northcom.mil

The Joint Staff should issue procedures requiring that all mission assignments not
generated at the Joint Field Office and regional DCO level be staffed and coordinated at
the DCO level in order to ensure appropriate personnel involved in operations will be
consulted prior to the issuance of a mission assignment.

Civil Authority Involvement in Requesting DOD Aerial Imaging
        No civil authority we interviewed stated that it was willing to request DOD
assistance for aerial imaging and reimburse DOD for the support. FEMA officials stated
that more cost-effective alternatives were available and that they did not reimburse DOD
for aerial imaging. FEMA officials also stated that USNORTHCOM proposed to provide
a demonstration of DOD aerial imaging capabilities at no cost. The purpose of the
demonstration was to generate interest on the part of FEMA to use DOD assets; the Air

                                           17


Force charged the costs of the flights as training missions. Leadership at CAL FIRE was
conflicted on whether or not to request the DOD products and continued to ask for
demonstrations without committing to reimburse DOD for the operations.

Costs Associated With the Use of Aerial Imaging in 2007
        We estimated that DOD unnecessarily used nearly $2.4 million for aerial imaging
assets during the 2007 southern California wildland fires, as can be seen in Table 2, based
upon information provided by USNORTHCOM, U.S. Air Force North, and FEMA. The
estimate is conservative because it does not include the per diem, housing, or travel costs
associated with the use of the personnel and equipment, and because an estimate of the
total cost of the use of Eagle Vision cannot be calculated. Eagle Vision produces images
that can cost anywhere between $3,000 and $6,500 per image, but since the number of
images produced in 2007 is not known, the total cost cannot be estimated.

    Table 2. Estimated Costs Associated With Aerial Imaging Assets Used for the 2007
                      Southern California Wildland Fire Response
Asset                    Flight Hours      Cost per Flight Hour1           Total Cost for Assets Used2
U-2                                20.0              $12,500                            $250,000
P-3                                28.3                    2,300                           65,090
Global Hawk                        35.5                    3,400                          120,700
Air Force Auxiliary                41.3                     160                             6,608
              3
Rover Uplink                       N/A                       N/A                        1,920,000
                                                                   Total               $2,362,398
1
 Cost of asset per flight hour varies based on unique capabilities of individual aircraft and also which
agency receives the DOD support. We completed our calculations using conservative prices when we
could not determine that assets with higher costs were used.
2
 Total cost is an estimate calculated by the audit team.
3
 We calculated the cost of the Rover Uplink by multiplying the number of teams (4) identified in a U.S. Air
Force North situational report by the cost to field four teams ($30,000 each) and four transmitters
($450,000 each) identified by cancelled FEMA mission assignment 1731DR-CA-DoD-04. U.S. Air Force
North officials noted that the estimates were high, but agreed that they could be correct based on required
satellite usage.

         In addition, USNORTHCOM does not have visibility over the reimbursement
process of units that were deployed to USNORTHCOM to provide civil support because
the units are normally redeployed from USNORTHCOM as soon as the civil support is
complete, which normally occurs before the reimbursement process begins. DOD should
issue policy requiring that units deployed to USNORTHCOM for civil support missions
report financial matters of the support through USNORTHCOM until the unit identifies
that a final request has been submitted, regardless of when the unit redeploys from
USNORTHCOM.

Alternatives to DOD Aerial Imaging
       Neither FEMA Region IX nor NIFC officials identified a need for DOD aerial
imaging during the 2007 California wildland fires. FEMA Region IX officials stated that
they did not have a need for DOD aerial imaging during the event. They would have

                                                    18


only issued a mission assignment for aerial imaging if they received an official request
from California for the support. With a request from California, FEMA Region IX would
have considered other options along with DOD before assigning the mission. NIFC
officials also stated that they did not receive a request for assistance from California.
NIFC had a need for aerial imaging during the event, but was able to obtain the aerial
imaging without requesting the support from DOD. Although they did not require DOD
aerial imaging support during the 2007 southern California wildland fires, FEMA
Region IX officials noted there could be situations in the future where DOD is contacted
for aerial imaging support. NIFC officials stated that they also did not require DOD
aerial imaging support during the 2007 southern California wildland fires, and indicated
that, because NIFC has its own imaging capabilities that are equal to or superior to DOD
capabilities, NIFC would not request aerial imaging support from DOD unless absolutely
necessary.

Legality of DOD Performing Domestic Aerial Imaging
        We did not complete an assessment on the legality of DOD collecting aerial
images over domestic territory, but note that any future support should be closely
evaluated by DOD officials to determine whether the support is provided in accordance
with statutory authority, regulatory guidelines, and DOD policy. DCOs normally include
an assessment of the legality of the support as part of the validation of mission
assignments, but the DCO did not review the request during the 2007 southern California
wildland fires because the support was not initiated through FEMA Region IX. We did
not obtain any other documentation that a legal review was completed on the aerial
imaging support. DOD units can provide aerial imaging support for limited reasons, but
may be subject to various statutory, regulatory, or DOD policy restrictions. DOD should
train personnel who are responsible for validating missions on the legality of DOD aerial
imaging and implement procedures to ensure that applicable restrictions are followed.

Use of Assets for Situational Awareness
DOD used assets during the 2007 and 2008 California wildland fires that DOD had to
pay for because the assets were used to provide situational awareness to USNORTHCOM
or command and control of DoD and neither FEMA nor NIFC requested the use of the
assets. USNORTHCOM sent the Command Assessment Element and Operational
Command Post to the 2007 southern California fires to provide situational awareness to
USNORTHCOM and command and control of DOD forces responding to the incident.
Additionally, the Air Force captured aerial images during the 2008 northern California
wildland fires as part of training missions that were provided to USNORTHCOM for
situational awareness rather than performing the missions based on a civil authority
request for assistance.

Command Assessment Element and Operational Command Post
        On October, 24, 2007, USNORTHCOM sent the Command Assessment Element
and Operational Command Post to southern California without an identified need for the
assets to be in the area. Both U.S. Army North and FEMA Region IX officials confirmed
that State and local authorities did not request the capabilities. In his October 27, 2007,
Situation Report, the FEMA Region IX DCO stated that the action request for command
                                            19
and control for the DOD wildland fire support, including the Operational Command Post;
Base Support Installation; and Joint Reception, Staging, Onward Movement, and
Integration was rejected by the FEMA Operations Chief because the Federal
Coordinating Officer had not requested the capability. The Department of the Army
ultimately provided the funding for the elements since FEMA did not issue a mission
assignment for either group of personnel. Officials at U.S. Army North stated that the
Operational Command Post will always be sent to a disaster area if the capability is really
needed, regardless of whether or not the costs will be reimbursed. Although
USNORTHCOM is authorized to use these assets without a civil request, we determined
that the extent of the deployment and expense was unnecessary during the 2007 southern
California wildland fires. Figure 4 shows members of the Operational Command Post
working at March Air Reserve Base during the 2007 southern California wildland fires.

         Figure 4. Operational Command Post Members at March Air Reserve Base




         Source: www.northcom.mil

        During the wildland fires, the FEMA Region IX DCO handed over command and
control of DOD forces to the Operational Command Post for a period of several days, at
the request of the Commanding General who was in charge of the Operational Command
Post. The DCO stated that he never felt overwhelmed during the fire situation, and that it
was his understanding that the DCO maintains command and control over DOD forces
responding to an incident as long as he is not overwhelmed. Officials at U.S. Army
North, however, stated that it is well-known and established policy for the DCO to
maintain command and control of forces during an incident only until the Operational
Command Post or other task force arrives in the Joint Operations Area.

        The misunderstanding as to who should exercise command and control was
caused by the fact that existing DOD policy regarding command and control of DOD
forces during incident response does not specifically state the events that trigger the
hand-off of command and control from the DCO to the Operational Command Post.

                                            20


Joint Publication 3-28, “Civil Support,” states that the DCO may have limited command
and control of DOD forces responding to civil support missions. The publication further
explains that a task force or joint task force would normally be deployed for command
and control when large numbers of DOD forces are responding to an incident.
USNORTHCOM Concept Plan 2501, “Defense Support of Civil Authorities,” states that
when a small-scale DOD response is required, the DCO can be deployed to the Joint
Field Office. The Concept Plan states that the DCO can provide command and control
for the entire Defense Support of Civil Authorities effort if he is designated as a Joint
Force Commander, so long as the response does not exceed his command and control
capability. The Joint Staff should coordinate with USNORTHCOM to revise applicable
publications to specify the time frame or events for which the DCO is permitted to
maintain command and control of DOD forces responding to an incident. The Joint Staff
stated in comments to the draft report that Joint Publication 3-28 will be updated during
FY 2010.

        Under the Defense Support of Civil Authorities Standing Execution Order,
released June 8, 2007, the deployment of an assigned force does not require a request for
forces or a request for assistance. The Operational Command Post is a force assigned to
USNORTHCOM capable of conducting command and control operations for an incident,
yet the primary agency will likely never ask for a command and control capability. When
capabilities are requested from DOD, there is an inherent command and control
requirement attached. Civil authorities need to know and understand that when the
capabilities are requested the command and control element must also be deployed, and
consequently, the requesting agency must pay for the command and control element
along with the capability requested. DOD, specifically USNORTHCOM, should work
with civil authorities in establishing thresholds, that, when crossed, require the
deployment of an Operational Command Post or Joint Task Force, which in turn will be
funded by the civil authority.

Estimated Costs Associated With the Use of the Command
Assessment Element and the Operational Command Post
                Since neither State nor local authorities requested the Command
Assessment Element, the costs of transporting the unit were not reimbursed under a
mission assignment. DOD billed the transportation costs to the mission assignment that
called for the activation of the DCO, and as a result, FEMA charged back the costs,
including maintenance of the aircraft used to transport the Command Assessment
Element from Texas to southern California.

                USNORTHCOM’s decision to send the Command Assessment Element
and the Operational Command Post to southern California was not in violation of
applicable guidance, specifically the National Response Plan and the Stafford Act, since
the guidance does not preclude Federal Government assistance without a request from
civil authorities. According to a USNORTHCOM update, the Command Assessment
Element was in position on October 23, 2007. We reviewed conflicting statements from
FEMA and Army North officials regarding whether mission assignment 1731DR-CA-
DoD-03 was a request for the DCO and Command Assessment Element or if the request

                                           21


was only for the DCO and supporting elements. However, FEMA did not issue mission
assignment 1731DR-CA-DoD-03 until October 25, 2007. DoD could have also
potentially deployed the Command Assessment Element and Operational Command Post
under cancelled mission assignment 3279EM-CA-DoD-01, which had a similar mission
as 1731DR-CA-DoD-03, but only included funds of $75,000. DOD should not have
billed FEMA for the use of the capabilities because the cost of their use was not
reimbursable under the Stafford Act since civil authorities did not request or provide
adequate funds for them at the time they were deployed.

               As shown in Table 3, the estimated total cost of the per diem allowance of
the personnel associated with the units was $266,000; the cost to transport the units to
southern California was $78,419; and the cost to transport the units home after
redeploying from southern California was $13,148, for an estimated total cost of
$357,567. The estimated total is composed of the following costs:
           		 the per diem costs of $500 per person per day for each of the 76 personnel
                associated with the units for the 7 days that they were in southern
                California;
            transporting the Command Assessment Element personnel from Texas to
                southern California on a C-130 aircraft;
            transporting the Operational Command Post personnel from Texas to
                southern California on two C-17 aircraft; and
           		 transporting the Command Assessment Element and Operational
                Command Post personnel from southern California back to Texas on
                commercial airlines.

    Table 3. Estimated Costs of the Command Assessment Element and Operational 

       Command Post for the 2007 Southern California Wildland Fire Response 

Component of Total Cost                                                           Total Cost1
                        2
Per diem of personnel                                                                    $266,000
Transporting personnel to southern California3                                             78,419
                                                 4
Transporting personnel from southern California                                            13,148
                                                               Total                     $357,567
1
  Total cost is an estimate calculated by the audit team.
2
  $266,000 for per diem calculated by multiplying 76 personnel (identified by U.S. Army North) by $500
(identified in a DOD cost estimate) for 7 days (determined by the audit team’s review of situational
reports). Although U.S. Army North identified that the published per diem rate for hotel and meals is $182,
the additional funds may have been requested for other expenses incurred or higher hotel rates being
charged due to non-availability of hotels at the per diem rate.
3
  When creating the cost estimate, it was assumed that both the C-130 (1 plane for 2.7 hours at $6,796 per
hour) and the C-17s (2 planes for 2.5 hours each at $12,014 per hour) flew non-stop flights between Texas
and southern California.
4
  When creating the cost estimate, it was assumed the Command Assessment Element and Operational
Command Post personnel flew from Los Angeles International Airport into San Antonio International
Airport when returning to Texas (76 personnel at $173 per ticket).

              The Joint Staff and USNORTHCOM should review existing processes to
ensure that USNORTHCOM’s methods for obtaining situational awareness and

                                                     22
command and control of DOD assets are truly necessary to complete the mission and are
conducted in the most efficient and cost-effective manner.

Aerial Imaging Asset Use in 2008
       DOD used aerial imaging assets in 2008 to provide situational awareness to
USNORTHCOM. Neither FEMA nor NIFC formally requested DOD to provide aerial
imaging support or funded any missions. Instead, units conducting the support funded
the missions with DOD funds designated for training missions.

        We were unable to calculate the costs of these missions because the support was
tracked as regular training missions. In 2008, DOD used the U-2 and the Global Hawk
aircraft for situational awareness. DOD did not track flight hours for aerial imaging
during the 2008 northern California wildland fires, making the calculation of a cost
estimate for 2008 impossible. The cost per flight hour of the U-2 could amount to up to
$12,500. The cost per flight hour of the Global Hawk was $3,400. Because DOD did not
track data such as flight hours in 2008 as they did in 2007, we could not calculate the full
cost of each asset used. We did not assess whether the need for aerial imaging during the
2008 response was viable. However, if USNORTHCOM determines a recurring and
viable need for aerial imaging resources to provide situational awareness for DOD’s
benefit, USNORTHCOM should conduct an analysis to determine if it is cost-beneficial
to procure contracted resources that may provide better value to complete their mission.

Evaluating Mission Assignment Requirements for the
Mobile Aeromedical Staging Facility
USNORTHCOM did not properly evaluate the requirements of a mission assignment,
and positioned the Mobile Aeromedical Staging Facility when the mission assignment
contained a request only for planning for the positioning of the capability. FEMA
Headquarters generated mission assignment 3279EM-CA-DoD-05 for the preparation
and planning of a Mobile Aeromedical Staging Facility on October 24, 2007. The
mission assignment provided $50,000 and called for USNORTHCOM to conduct
preliminary planning preparatory to providing aircraft, equipment, and personnel for
strategic patient movement, which could be conducted using a Mobile Aeromedical
Staging Facility. Both FEMA Headquarters and FEMA Region IX wanted the Mobile
Aeromedical Staging Facility capability to be staged and implemented; however, when
personnel at FEMA Headquarters wrote the mission assignment, they worded the request
in such a way that it appeared that FEMA only wanted USNORTHCOM to conduct
planning preparatory to providing the asset rather than to actually stage the asset.
USNORTHCOM positioned the Mobile Aeromedical Staging Facility based on a request
made by FEMA Headquarters personnel during a video teleconference, rather than on the
request contained in the mission assignment that was issued. USNORTHCOM staged
assets rather than only planning for the capability as contained in the request. Because of
the confusion as to whether FEMA wanted only planning for the capability or the actual
capability to be staged, FEMA Headquarters issued a mission assignment that cancelled
the current mission assignment and issued two additional mission assignments for



                                            23


$200,000 each, 1731DR-CA-DoD-08 and 1731DR-CA-DoD-11, on November 19, 2007,
to fund the already completed pre-staging.

DOD billed $168,198 on mission assignment 1731DR-CA-DoD-08 and $195,432 on
mission assignment 1731DR-CA-DoD-11 as costs of the Mobile Aeromedical Staging
Facility positioning, which was approximately $313,000 more than the estimated cost
associated with the original mission assignment that was issued for the planning for the
capability. FEMA Region IX agreed to reimburse DOD for the positioning of the Mobile
Aeromedical Staging Facility since it had wanted the capability to be staged, even though
the mission assignment that was issued had requested only planning for the asset.
USNORTHCOM placed U.S. Transportation Command and the units providing the pre-
staging of the Mobile Aeromedical Staging Facility at risk of having to fund the operation
for positioning the asset. U.S. Transportation Command and the units providing the pre-
staging of the capability would have been responsible for funding the positioning of the
Mobile Aeromedical Staging Facility if FEMA had not agreed to reimburse DOD for the
associated costs. If USNORTHCOM personnel had reviewed the mission assignment as
issued and paid attention to the cost FEMA had estimated, they would have recognized
that the intent of the mission assignment was for planning and preparation of the
capability rather than for its implementation.

Funding Assets Used by USNORTHCOM
DOD units fund any missions directed by USNORTHCOM that are not reimbursed
through a request for assistance from civil authorities. USNORTHCOM directs assigned
units to provide support, but does not always provide funding to complete the mission.
Because civil support is a joint mission, the Department’s costs incurred by units
assigned to complete these missions are from across the Services and other DOD
Components. DOD does not maintain or report these costs to a single location. If
USNORTHCOM provided funds to units that were used to complete these missions and
required reporting on these funds, USNORTHCOM would have increased visibility and
better control of costs associated with this type of support. At present, costs are not
considered as a significant factor when making decisions to use assets because
USNORTHCOM is not required to provide funding for these assets. USNORTHCOM
should request funds as part of its normal annual budget that can be distributed to DOD
units directed by USNORTHCOM to perform situational awareness or command and
control missions.

Conclusion
USNORTHCOM unnecessarily used assets costing at least an estimated $3 million
during the 2007 and 2008 California wildland firefighting operations that were either
available through other sources or not formally requested. USNORTHCOM is not
responsible for funding assets that are sent to the disaster area, therefore costs are not
considered as a significant factor before using DOD resources. In addition, DOD policy
is not clear on the events that trigger the DCO’s relinquishment of command and control
of DOD forces in the disaster area or when a joint task force will stand up to manage the
incident. DOD should identify alternative methods to obtain situational awareness that
are more efficient and cost-effective than the methods currently being used, and provide
                                            24
funding to USNORTHCOM that can be used for operations conducted at the discretion of
USNORTHCOM. DOD should ensure that the appropriate personnel are aware that they
are required to complete an analysis for each mission assignment received and that they
understand the elements of the analysis in order to properly evaluate the intent and
criteria of mission assignments.

Recommendations, Management Comments, and Our
Response

Revised, Added, and Renumbered Recommendations
As a result of Joint Staff and U.S. Northern Command comments, we revised
Recommendations B.1.c and B.3.d (draft Recommendation B.3.c) to meet our intent. We
also added Recommendations B.3.c and B.3.e to our recommendations directed to the
U.S. Northern Command to further emphasize issues we discussed in the finding.
Because of the addition, draft Recommendation B.3.c was renumbered to B.3.d.

B.1. We recommend that the Chairman, Joint Staff:

       a. Issue procedures that require all mission assignments not generated at the
       Joint Field Office and Regional Defense Coordinating Officer level to be
       staffed and coordinated at the Defense Coordinating Officer level to ensure
       appropriate personnel involved in operations will be consulted prior to the
       acceptance of a mission assignment, conditions permitting.

       b. Increase information on legality and surveillance by DOD assets as part of
       training and exercises for personnel validating, processing, and performing
       Defense Support to Civil Authorities missions.

       c. Coordinate with U.S. Northern Command on the guidance available to
       Defense Coordinating Officers regarding command and control discussed in
       Joint Publication 3-28, “Civil Support,” September 14, 2007, and the U.S.
       Northern Command Concept Plans to clarify when a Defense Coordinating
       Officer retains command and control or hands off command and control to
       the Operational Command Post.

Joint Staff Comments
The Vice Director, Joint Staff, commented on the recommendations. For Recommendations
B.1.a and B.1.c, the Vice Director disagreed and stated that current policy and doctrine exists
to address our recommendations. If additional guidance is required, it will be in the form of
compliance with existing doctrine and will be included during the scheduled update of Joint
Publication 3-28, “Civil Support.” For Recommendation B.1.a, the Vice Director quoted
page II-3 of Joint Publication 3-28 that “In all cases, the supported CCDR [Combatant
Commander] and the affected DCO must be notified to limit redundant coordination of
resources.” To address Recommendation B.1.b, the Vice Director identified a request
submitted on July 13, 2009, from the Commander, U.S. Northern Command to the Secretary
of Defense regarding broader authority to conduct incident awareness and assessment

                                              25


missions in support of civil authorities. The Vice Director disagreed with Recommendation
B.1.c because Joint Publication 3-28 should provide overarching guidance rather than
specific events. The decision to transfer authority should remain with the combatant
commander.

Our Response
The Vice Director’s comments to Recommendation B.1.a were partially responsive. The
section of Joint Publication 3-28 referenced by the Vice Director in comments to
Recommendation B.1.a refers only to requests that come directly to the Joint Director of
Military Support or the DOD Executive Secretary. During the 2007 response, the mission
assignments for the aerial imaging support went directly to the combatant commander. The
referenced section of Joint Publication 3-28 would not have been applicable to that request
because the Joint Publication does not specifically instruct the combatant commander to
consult the DCO. Our recommendation is that procedures should be developed to ensure that
the requests are reviewed at the Joint Field Office. It is pertinent the DCO and Defense
Coordinating Element are in the best position to determine if civil authorities have considered
other options and have identified a valid need before DOD provides civil support. The DCO
and Defense Coordinating Element are usually the closest to the disaster area and are
constantly coordinating potential DOD requirements with the appropriate civil authorities.

The Vice Director’s comments on Recommendation B.1.b were not responsive. For
Recommendation B.1.b, we request that the Joint Staff comment on whether they agree or
disagree with our recommendation. DOD needs to train and exercise personnel in regards to
the legality of surveillance functions during civil missions whether the Secretary approves the
U.S. Northern Command request or not. The Vice Director’s comments did not address our
recommendation. We understand that the content of the training and exercises may change if
broader authority is granted, but the need for implementing our recommendation will still
exist if no change in policy occurs as a result of the request.

The Vice Director’s comments on Recommendation B.1.c were responsive. We revised
Recommendation B.1.c based on the Joint Staff and U.S. Northern Command comments.
Our intent was not to change the applicability and tone of the Joint Publication. If Joint
Publication 3-28 is not revised to include specific events for command and control handoff,
then the Joint Staff should coordinate with the combatant commanders to ensure that wording
included in the Joint Publication does not conflict with the guidance and information that the
combatant commanders are providing to DCOs.

We request that the Joint Staff provide additional comments on Recommendations B.1.a,
B.1.b, and revised Recommendation B.1.c.

Commander, U.S. Northern Command Comments
Although not required to comment, the Inspector General, U.S. Northern Command,
commented for the Commander, U.S. Northern Command. The Inspector General provided
comments similar to the Joint Staff on Recommendation B.1.c in regards to leaving critical
decisions to the commander and not written into the Joint Publications.




                                              26


Our Response
We revised Recommendation B.1.c based on the Joint Staff and U.S. Northern Command
comments. If Joint Publication 3-28 is not revised, then the Joint Staff and U.S. Northern
Command should coordinate policy and revise U.S. Northern Command Concept Plans as
necessary so that consistent instruction is available regarding command and control authority
of DCOs.

B.2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer issue policy requiring that units deployed to U.S. Northern
Command (in response to a mission assignment) report financial matters of the
support through U.S. Northern Command until the unit identifies that a final
request has been submitted, regardless of when the unit redeploys from U.S.
Northern Command. The policy should also include controls that will require
reimbursement requests to be reviewed by a component familiar with the original
request for assistance so that chargebacks resulting from reimbursement requests
that are not within the scope of the original request can be reduced.

Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments
The Deputy Chief Financial Officer, Under Secretary of Defense (Comptroller)/Chief
Financial Officer, agreed with our recommendation. By September 30, 2009, the Under
Secretary of Defense (Comptroller)/Chief Financial Officer planned to issue guidance
instructing all units tasked by USNORTHCOM to provide assistance to FEMA to report
reimbursement requests through USNORTHCOM.

Our Response
The Under Secretary of Defense (Comptroller)/Chief Financial Officer comments were
responsive and no additional comments are required. However, we contacted the Office
of the Under Secretary of Defense (Comptroller)/Chief Financial Officer regarding the
planned guidance on November 3, 2009. We were informed that the guidance had not
been issued. The Under Secretary of Defense (Comptroller)/Chief Financial Officer
personnel cited other higher priorities as the reason issuing the guidance was delayed.

Commander, U.S. Northern Command Comments
Although not required to comment, The Inspector General, U.S. Northern Command,
commented for the Commander, U.S. Northern Command. The Inspector General
provided an unsolicited response stating that it agreed with this recommendation.

Our Response
We appreciate U.S. Northern Command’s comments on the recommendation because the
recommendation will impact its operations. No further comments are required.

B.3. We recommend that the Commander, U.S. Northern Command:

       a. Review existing processes to ensure that U.S. Northern Command’s
       methods for obtaining situational awareness and command and control of
                                             27
       DOD assets required during civil support are necessary to complete the
       mission and are obtained in the most efficient and cost-effective manner.

       b. Request funds as part of the normal annual budget that can be distributed
       to DOD assets used by U.S. Northern Command to perform situational
       awareness for civil support missions.

       c. Continue to work with appropriate civil authorities, either directly or
       through the Defense Coordinating Officers, on coordinating and assimilating
       the use of the Operational Command Post with civil responders and potential
       reimbursement of associated usage costs.

       d. Update the effective version of U.S. Northern Command Concept Plan,
       “Defense Support of Civil Authorities,” to reflect factors, such as the size and
       dispersion of DOD forces, that influence the decision process on when to
       transition command and control of forces from the Defense Coordinating
       Officer to a Task Force or Joint Task Force Commander.

       e. Conduct an assessment on the future need of aerial imaging assets to
       complete the U.S. Northern Command’s mission and analyze whether DOD
       assets should perform the work or whether it is more beneficial to use
       contractors for the support.

Commander, U.S. Northern Command Comments
The Inspector General, U.S. Northern Command, commented for the Commander, U.S.
Northern Command. The U.S. Northern Command agreed with Recommendations B.3.a
and B.3.b. The U.S. Northern Command disagreed with Recommendation B.3.d (draft
Recommendation B.3.c). The Inspector General stated that any revision to Joint
Publication 3-28 should not prohibit the flexibility of combatant commanders and
operational commanders to make decisions during operations.

U.S. Northern Command suggested revising draft Recommendation B.3.c to: “Update the
effective version of U.S. Northern Command Concept Plan, “Defense Support of Civil
Authorities,” to reflect factors, such as the size of DOD forces and the dispersion of
forces, that influence the decision process on when to transition C2 (command and
control) of forces from the Defense Coordinating Officer to a Task Force or Joint Task
Force Commander.”

Our Response
The U.S. Northern Command’s comments were partially responsive. We implemented
the U.S. Northern Command’s suggested revision to draft Recommendation B.3.c. and
request comments on revised Recommendation B.3.d. We also request additional
comments from the Commander, U.S. Northern Command, on Recommendations B.3.a
and B.3.b. Specifically what steps the command plans to take to implement our
recommendations and the expected completion date of the actions. We also request
comments on new Recommendations B.3.c and B.3.e.

                                          28
Finding C. DOD Policy for Civil Support
DOD does not have adequate policy for Defense Support to Civil Authorities to include
incorporating immediate response with other types of civil support. Events during the
2007 southern California wildland fires shed light on weaknesses within DOD policies
and procedures. Specifically, DOD policy for Defense Support to Civil Authorities is not
adequate because it does not:

      codify and define the roles and responsibilities of the DCO;
      require Components preparing to act under Immediate Response Authority, in
       anticipation of a mission assignment, or under a mutual aid agreement to
       coordinate these efforts with the DCO or Geographic Combatant Commander if
       the support could coincide with other civil support;
      provide clear guidance on the requirements of commanders providing immediate
       response to adequately validate and document the civil request; and
      require local commanders to develop a plan for transitioning support provided
       through immediate response to civil authorities as required by law or justify why
       DOD should continue to provide support if civil resources are available.

As a result, local commanders conducting immediate response did not always know the
roles and responsibilities of the DCO, and decision authorities within DOD had limited
situational awareness of actions taken by local commanders. Additionally, local
commanders responding under immediate response authority did not always document
requests from civil authorities. Finally, DOD lacked appropriate guidance, plans, and
agreements with local authorities during the 2007 southern California wildland fires to
disengage DOD immediate response resources and transfer support back to civil
authorities.

Challenges With DOD Policy for Civil Support
DOD does not have adequate policy for Defense Support to Civil Authorities. DOD has
not codified the roles and responsibilities of the DCO, and most commanders responding
under immediate response do not inform the DCO of support they provide to a disaster
event. Also, DoD does not have policy that requires units preparing for immediate
response, acting in anticipation of a mission assignment, or providing mutual aid to report
their actions to the DCO and Geographic Combatant Commander if the support could
coincide with other civil support. In addition, DOD does not have policy that defines
how a commander can respond to a disaster proactively or that allows local commanders
to provide a liaison to local authorities. Further, DOD policy does not require
commanders acting under immediate response authority to validate and document
requests from civil authorities or provide a means to transition from immediate response
actions to formal requests for assistance.

Codification of the DCO Position
       DOD has not codified the roles and responsibilities of the DCO. During the 2007
southern California wildland fires, personnel at DOD installations did not always know


                                            29


how to coordinate with or support the DCO. DOD should provide guidance that instructs
DOD Components providing disaster response to coordinate with and support the DCO.

Reporting Requirements in DOD Civil Support Policy
        Units are not required by DOD Directives 3025.1 and 3025.15, “Military
Assistance to Civil Authorities,” February 18, 1997, to report their actions to decision-
making authorities when preparing for immediate response or an anticipated request for
assistance prior to initiating the support or when providing mutual aid. Further, DOD has
not established a uniform reporting period for units acting under immediate response to
report their actions to higher headquarters. DOD decisionmakers involved in the Defense
Support of Civil Authorities process may lack situational awareness of actions at the local
level, because DOD directives do not require units to report their actions to decision
authorities prior to initiating the support. DOD should revise Directives 3025.1 and
3025.15, or publish other appropriate directives, so units preparing to provide support
under immediate response authority or a request for assistance must report their actions to
USNORTHCOM and the DCO. Reporting preparation for immediate response or request
for assistance would help provide more comprehensive situational awareness of Military
operations and provide valuable insight into potential homeland security threats.

Task Force Bulldozer
                During the 2007 southern California wildland fires, the DCO and the Joint
Staff had limited situational awareness of actions taken by Navy Region Southwest and
Marine Corps Installations West. DOD Directives 3025.1 and 3025.15 do not require
units to report actions taken in preparation of a request for assistance or immediate
response actions. The DCO and the Joint Staff gained situational awareness of Task
Force Bulldozer upon viewing an article written by the San Diego Union-Tribune. As
discussed in Finding A, Navy Region Southwest and Marine Corps Installations West
were preparing to provide support and informed their higher headquarters of their actions,
but were not required to report their actions as immediate response because they were not
supporting civil authorities at the time the article was published. Navy Region Southwest
and Marine Corps Installations West were first required to report their actions to the Joint
Staff the day after the article was published, or 2 days after they first started preparations
for the support. We determined that the reporting requirements and other criteria
authorizing Immediate Response Authority were not applicable until DOD was
performing a civil support mission.

Documenting Immediate Response Actions
         Units are not required by DOD directives to analyze and document immediate
response requests for assistance from civil authorities prior to providing support. DOD
Directives 3025.1 and 3025.15 provide DOD installations the authority to provide
support to civil authorities under imminently serious conditions and when time does not
allow for approval from higher headquarters. DOD Directives 3025.1 and 3025.15 also
require actions provided under immediate response to be followed up with a written
request from the requesting authorities. During the 2007 southern California wildland
fires, neither Navy Region Southwest nor Marine Corps Installations West obtained a
written request for assistance from local responders. DOD Directives 3025.1 and

                                             30


3025.15 do not provide effective guidance for installation commanders to evaluate
requests to determine whether providing the support is in the best interest of DOD.

Validating Immediate Response Actions
       DOD should evaluate requests for assistance for the areas of cost,
appropriateness, readiness, risk, legality, and lethality as noted in DOD Directive
3025.15, but DOD personnel are interpreting the requirements differently for action taken
under Immediate Response Authority. DOD guidance should clearly require installation
commanders to complete and document the evaluation prior to or shortly after providing
support under immediate response. The purpose of the review would be to validate the
proposed mission and provide DOD installation commanders guidance on how to
determine whether they should provide support.

        Neither Navy Region Southwest nor Marine Corps Installations West documented
that they did an evaluation before performing Task Force Bulldozer. Navy Region
Southwest noted that it was not required to complete the evaluation. However, Assistant
Secretary of Defense for Homeland Defense and Americas’ Security Affairs officials
stated that the evaluation requirement does apply to immediate response. We reviewed
DoD Directives 3025.1 and 3025.15. We determined that the six criteria were not
applicable because of the statement in DoD Directive 3025.15, paragraph 4.4 which
states “Nothing in this Directive prevents a commander from exercising his or her
immediate emergency response authority as outlined in DOD Directive 3025.1.”. DOD
should revise the policy to clarify what evaluation must be completed before providing
immediate response.

        During meetings with Marine Corps Installations West, we received and reviewed
the installation’s requirement implemented after the 2007 fires for analyzing requests for
assistance from local authorities and found they now require commanders to complete the
evaluation. We would like to commend Marine Corps Installations West for taking
proactive measures based on lessons learned. See Appendix F for other corrective
actions DOD took after the 2007 and 2008 California wildland fires.

Transitioning Immediate Response From DOD to Civil
Authorities
         DOD lacks appropriate plans, guidance, and agreements with local authorities to
disengage immediate response resources and transfer the support back to civil authorities.
During the 2007 southern California wildland fires, neither NIFC nor FEMA transitioned
any immediate response actions to mission assignments. Because DOD does not require
local commanders to create or have higher level approval of plans and agreements to
disengage immediate response resources, DOD provided extended support based on civil
requests that should have been followed with formal requests for assistance. We
determined that local civil authorities do not have incentive to formalize immediate
response actions because they are getting the support they need without a formal request.
DOD should develop guidance that provides instructions to local commanders on how to
assist local authorities regarding the transition from immediate response to formal
requests. In the event a mission assignment is not issued, DOD should provide

                                           31
instructions to transfer the operational control of units providing immediate response to
USNORTHCOM. Having guidance to transition units providing immediate response
would improve the communication as well as the command and control and situational
awareness of civil support operations.

Helicopter Assets Deployed by the U.S. Marine Corps
                 The Marine Corps partially provided helicopter support under Immediate
Response Authority during the 2007 southern California wildland fires that did not
transition to a formal request for assistance from either FEMA or NIFC because DOD
does not have a formal mechanism for transitioning immediate response to a mission
assignment. Civil authorities did not make a formal request because the support needed
was satisfied by the assets deployed. DOD provided helicopter support under various
other agreements also, but these resources would not need to transition to an official
request because they were already covered under established agreements. See Figure 5
for a depiction of DOD helicopter support to wildland firefighting activities.

               Figure 5. A Navy MH-60 Drops Water From a Bucket




                   Source: www.northcom.mil



Liaison Support by Installation Commanders
        Installation commanders may benefit from providing liaison support to civil
authorities when providing assistance to a disaster. Liaison officers assigned to civil
authorities can help DOD commanders maintain better situational awareness, allow DOD
responders to plan and tailor response actions, and help DOD responders transition
response actions back to civil authorities. In the event Service liaison officers are not

                                              32


available to support an installation commander, the commander should consider
assigning installation personnel to coordinate with civil authorities.

Conclusion
DOD Directives 3025.1 and 3025.15 do not provide decisionmakers with information on
all actions conducted in support of domestic disaster relief operations. The events of
Task Force Bulldozer revealed weaknesses in DOD Directives 3025.1 and 3025.15.
DOD should update DOD Directives 3025.1 and 3025.15, or publish other appropriate
directives, to enhance communication and increase overall situational awareness of
support efforts from the earliest stages. DOD guidance does not facilitate comprehensive
communication or provide DOD responders with guidance on how to justify and
document their decision to respond. DOD should also provide guidance on how to
transition immediate response actions to a mission assignment for prolonged support if
needed.

Management Comments on the Finding and Our
Response

U.S. Marine Corps Comments
Although not required to comment, the U.S. Marine Corps provided unsolicited
comments on Finding C of our draft report. The Marine Corps’ main concern was that
reporting immediate response, mutual aid, and anticipated mission assignment activities
should not include reporting training activities that are currently being completed through
mutual aid agreements. The Marine Corps also commented that limiting reporting
requirements only if they coincide with other civil support still would be too restrictive
because it is difficult to predict when the support might escalate to a larger effort.

The Marine Corps also commented on six other items discussed in this finding. The
additional comments were in relation to the DCO command and control authority, the
relationship between the combatant commander and local commanders providing
immediate response support, providing local liaisons to civil authorities, the
circumstances of Task Force Bulldozer, the helicopter support provided during 2007, and
local commander liaisons to the DCO. Where appropriate, we revised our report.
Through further discussion directly with the Marine Corps, the concerns regarding
circumstances of Task Force Bulldozer and the helicopter support were retracted. The
Marine Corps still does not fully agree that immediate response, mutual aid, and actions
taken in anticipation of a mission assignment be reported to the DCO because it creates a
dual reporting channel. However, the Marine Corps personnel stated that they are
actively preparing and revising mutual aid agreements with local civil authorities so that
formal agreements are available when possible.

The full text of the Marine Corps’ unsolicited comments and followup response are
included with the other comments we received in the back of this report.



                                            33
Our Response
We agree with the Marine Corps assessment regarding the reporting of training and
recurring mutual aid. We included specific wording in front of each type of support
listing in Recommendation C.2.a regarding when actions should be reported. We did not
originally include similar wording throughout the finding. We revised the finding to
clarify our intent. We did not intend for our recommendation to inundate the civil
support processes with reporting requirements, but have determined that a requirement
should exist for reporting the specific type of actions we identified when conditions exist.
Although we recognize that conditions can escalate, the responses should be reported at
that time. We did not intend for any policy revision to require commanders to predict an
escalation of the response.

We applaud the efforts to formalize mutual aid agreements with local civil authorities
because it will minimize the instances where immediate response support is required.

Recommendations, Management Comments, and Our
Response

Revised Recommendations
We clarified Recommendation C.1 to better state what action should be taken to
implement our recommendation.

C.1. We recommend that the Chairman, Joint Staff, develop guidance to specify the
roles and responsibilities of the Defense Coordinating Officer, how Services are
expected to coordinate with and support the Defense Coordinating Officer program,
and how other DOD Components can leverage the Defense Coordinating Officer
during their civil support missions.

Joint Staff Comments
The Vice Director, Joint Staff, did not agree with the recommendation and commented
that Joint Publication 3-28 provides more than adequate guidance concerning the roles
and responsibilities of the DCO. Specifically chapter 2, “DOD Operational
Environment”; section 4, “Roles and Responsibilities”; and section 5, “Command and
Control,” contain the information. We subsequently requested clarification from the
Joint Staff because section 4 does not mention the DCO and were advised the comment
should have been referenced to section 2, “Requests for Assistance.”

Our Response
The Vice Director’s comments were responsive. We revised the recommendation based
on the comments. The Joint Staff should still consider updating policy to codify the DCO
position. Although Joint Publication 3-28 describes how the DCO handles the request for
assistance process, DOD has not codified the program so that it is recognized by groups
not within the normal approval process.



                                            34
We determined that communication and coordination between the Services and the DCO
was lacking during the 2007 response. A local commander and the DCO did not have
clear communication or coordination channels during the 2007 southern California
wildland response. The local commander did not have an understanding of the DCO
position and was expecting the DCO to complete tasks that were outside his authorities.
Additionally, DOD has no policies in place that require local commanders and DCOs to
cooperate during a response because the two groups fall under separate chains of
command. Although the chain of command should remain separate, the Joint Staff
should develop broad policy that establishes how various components throughout DOD,
including the Joint Staff, combatant commanders, Service Secretaries, and local
commanders interact with the DCO program.

We request that the Joint Staff provide comments on our revised recommendation.

Commander, U.S. Northern Command Comments
Although not required to comment, the Inspector General, U.S. Northern Command,
commented for the Commander, U.S. Northern Command. The Inspector General
provided an unsolicited response stating that it agreed with this recommendation.

Our Response
We appreciate the Inspector General’s input on this recommendation.

C.2. We recommend that the Assistant Secretary of Defense for Homeland Defense
and Americas’ Security Affairs issue new policy or update DOD Directives 3025.1,
“Military Support to Civil Authorities,” January 15, 1993; and 3025.15, “Military
Assistance to Civil Authorities,” February 18, 1997; or other appropriate directives
to:

       a. Require units preparing for immediate response, acting in anticipation of
a mission assignment, or providing mutual aid to report their actions to the Defense
Coordinating Officer or the Geographic Combatant Commander if the support
could coincide with other civil support.

Assistant Secretary of Defense for Homeland Defense and
Americas’ Security Affairs Comments
The Deputy Assistant Secretary of Defense for Homeland Domains and Defense Support
of Civil Authorities, responding for the Assistant Secretary of Defense for Homeland
Defense and Americas’ Security Affairs disagreed. She stated that there is already
guidance applicable to reporting the three types of civil support identified in the
recommendation. Specific guidance mentioned in the Deputy’s response includes DOD
Directive 3025.1, DOD Directive 3025.15, the 2008 Defense Support to Civil Authorities
Standing Execution Order, a Deputy Secretary of Defense memorandum on reporting
civil support, and a draft DoD Directive.




                                            35


Our Response
The Deputy’s comments were not responsive. The Deputy’s comments note guidance
that does not specifically mention reporting the actions to the DCO or the Geographic
Combatant Commander with the exception of the 2008 Joint Staff Standing Defense
Support to Civil Authorities, which was not applicable to the 2007 southern California
wildland fire response. Our recommendation is specifically to notify the DCO and the
Geographic Combatant Commander of preparing for immediate response, providing
mutual aid, or actions taken in anticipation of a mission assignment. Because the DCO is
the DOD’s main contact with civil authorities at the Joint Field Office and the Command-
er, U.S. Northern Command, has primary responsibility to secure the Homeland, they
need to be informed of all actions DOD is taking to mitigate a situation. DoD should
revise policy to ensure that the DCOs and Geographic Combatant Commanders are
informed shortly after the civil support is being planned or provided rather than
informing them after a string of other authorities are notified, including higher
headquarters, the National Military Command Center, the Joint Staff, and the DOD
Executive Secretary. Additionally, the guidance noted by the Deputy regarding reporting
of mission assignments is not applicable when a unit is acting in anticipation of a mission
assignment as was the case in the days leading up to the deployment of Task Force
Bulldozer. We request that the Deputy Assistant Secretary of Defense for Homeland
Defense Domains and Defense Support of Civil Authorities reconsider her position and
provide further comments on Recommendation C.2.a.

      b. Clarify the evaluation requirements for units conducting immediate
response to document the validation of the request for assistance using the cost,
appropriateness, readiness, risk, legality, and lethality analysis, time permitting.

Assistant Secretary of Defense for Homeland Defense and
Americas’ Security Affairs Comments
The Deputy Assistant Secretary of Defense for Homeland Domains and Defense Support
of Civil Authorities, responding for the Assistant Secretary of Defense for Homeland
Defense and Americas’ Security Affairs disagreed. She stated that there is already a
requirement to evaluate all types of civil support based on the six noted factors. DoD
Directive 3025.15, “Military Assistance to Civil Authorities,” paragraph 4.2, states that
“All requests by Civil Authorities for DoD Military Assistance shall be evaluated against
the following criteria.”

Our Response
The Deputy’s comments were not responsive. Although DoD Directive 3025.15,
“Military Assistance to Civil Authorities,” paragraph 4.2, requires all civil support to be
evaluated for the six criteria, paragraph 4.4 states “Nothing in this Directive prevents a
commander from exercising his or her immediate emergency response authority as
outlined in DOD Directive 3025.1.” We reviewed DOD Directives 3025.1 and 3025.15.
We determined that the six criteria were not applicable because of the statement in DOD
Directive 3025.15, paragraph 4.4. Additionally, local commanders we interviewed did
not provide consistent answers regarding whether or not they were required to complete
the analysis. If this analysis is not correctly completed before providing support, DOD

                                            36


could potentially violate laws, unnecessarily put DOD personnel in risky situations, or
may even be required to use unauthorized deadly force against the civilian population to
quell a situation. To ensure that the six criteria are considered before providing
immediate response, DOD should clarify the language in DOD Directive 3025.15. We
request that the Deputy Assistant Secretary of Defense for Homeland Defense Domains
and Defense Support of Civil Authorities reconsider her position and provide further
comments on Recommendation C.2.b.

       c. Provide a uniform time frame for reporting immediate response.

Assistant Secretary of Defense for Homeland Defense and
Americas’ Security Affairs Comments
The Deputy Assistant Secretary of Defense for Homeland Domains and Defense Support
of Civil Authorities, responding for the Assistant Secretary of Defense for Homeland
Defense and Americas’ Security Affairs disagreed. She stated that operational
commanders should determine the reporting times.

Our Response
The Deputy’s comments were not responsive. We do not agree that reporting basic
information is restrictive to the operational commander’s authority to make decisions and
complete a mission. The Secretary, Joint Staff, combatant commanders, and other
officials need to have this information available to make sound decisions regarding how
the DOD supports civil authorities. DOD’s goal of transitioning immediate response
back to civil support efforts is hindered when delayed or fragmented information is
provided to decisionmakers. We request that the Deputy Assistant Secretary of Defense
for Homeland Defense Domains and Defense Support of Civil Authorities reconsider her
position and provide further comments on Recommendation C.2.c.

      d. Require Services to develop plans, guidance, or agreements with civil
authorities regarding the disengaging of DOD resources providing immediate
response and transitioning the support back to civil authorities.

Assistant Secretary of Defense for Homeland Defense and
Americas’ Security Affairs Comments
The Deputy Assistant Secretary of Defense for Homeland Domains and Defense Support
of Civil Authorities, responding for the Assistant Secretary of Defense for Homeland
Defense and Americas’ Security Affairs disagreed. She stated that the operational
commanders should make the decision to disengage forces providing immediate response
based on existing guidance that immediate response can be provided “to save lives,
prevent human suffering, or mitigate great property damage under imminently serious
conditions.”

Our Response
The Deputy’s comments were not responsive. We do not agree that the Deputy’s
comment considered complete guidance on immediate response. DoD Directive 3025.1,

                                           37


“Military Support to Civil Authorities,” paragraph 4.5.3, states that “Any commander or
official acting under the Immediate Response authority of this Directive shall . . . seek
approval or additional authorizations as needed.” Immediate response should only be
used as a stop-gap until more formal means can be established. A local authority
requesting assistance from a local DOD commander circumvents the processes and
authorities established by the National Response Framework. Immediate Response
Authority gives DOD commanders the flexibility to provide support during dire
situations, but DOD should only be providing civil support when civil resources are not
able and available to provide the support. Although it is the local civil authorities’
responsibility to initiate a request for assistance through State and Federal channels, DOD
should have plans in place to disengage immediate responders and allow civil authorities
to take over a situation. If a local DOD commander determines that local authorities are
not facilitating a transition back to civil control, the commanders need guidance on taking
a proactive approach in transitioning the response back to civil authorities or a more
formalized mission assignment. We request that the Deputy Assistant Secretary of
Defense for Homeland Defense Domains and Defense Support of Civil Authorities
reconsider her position and provide further comments on Recommendation C.2.d.

      e. Emphasize the requirement that units providing immediate response
support supplement verbal requests with written documentation and clarify what
information should be contained in the written request.

Assistant Secretary of Defense for Homeland Defense and
Americas’ Security Affairs Comments
The Deputy Assistant Secretary of Defense for Homeland Domains and Defense Support
of Civil Authorities, responding for the Assistant Secretary of Defense for Homeland
Defense and Americas’ Security Affairs agreed. She stated that a new directive will
incorporate this recommendation by outlining the basic information required with the
written request.

Our Response
We considered this comment responsive and no further comments are required.

Commander, U.S. Northern Command Comments
Although not required to comment, the Inspector General, U.S. Northern Command,
commented for the Commander, U.S. Northern Command. The Inspector General
provided an unsolicited response stating that it agreed with recommendations
C.2.a – C.2.e.

Our Response
We appreciate the Inspector General’s input on these recommendations.




                                            38


Appendix A. Scope and Methodology
We conducted the performance audit from July 2008 through July 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed all requests for assistance that DOD received from civil authorities during
the 2007 southern California wildland fires, including 19 mission assignments and
applicable amendments from FEMA; a request from NIFC for activation of a DCO,
6 aircraft capable of using the Modular Airborne Firefighting System, and bases to
support the Modular Airborne Firefighting Systems operation; support provided under
mutual aid agreements; and immediate response actions provided by local DOD
installations. Mission assignments are identified in Appendix E. We also reviewed the
use of aerial imaging during the 2008 northern California wildland fires. DOD support
provided through mutual aid generally consisted of sharing an installation’s firefighting
assets with the local community. DOD support provided under immediate response
included direct actions, such as Task Force Bulldozer, water drops from DOD
helicopters, and providing infrared capabilities, but also indirect actions, such as
removing DOD assets from the electric grid so that the electricity could be used
elsewhere.

We reviewed:
   prior audits;
   the Stafford Act;
   the National Response Plan and the National Response Framework;
   the Economy Act;
   title 44 of the Code of Federal Regulations;
   the DOD Financial Management Regulations;
   execution orders and deployment orders from USNORTHCOM;
   situation reports from DCOs, U.S. Army North, 153rd Air Expeditionary Group,
      U.S. Air Force North, USNORTHCOM, FEMA, the National Guard Bureau, and
      the National Oceanic and Atmospheric Administration; and 

   other subsequent DOD actions taken on the mission assignments. 


We also reviewed DOD lessons learned and a multi-entity report discussing lessons
learned from previous wildland fires.

In addition, we evaluated:
     the adequacy of directives, policies, manuals, instructions, and plans issued by
        Federal agencies, DOD, the Joint Staff, and USNORTHCOM related to Defense
        Support to Civil Authorities;
     mutual aid agreements between DOD, NIFC, and local/state entities; and

                                            39
    the achievements made since the 2007 southern California wildland fires.
Specific criteria that we reviewed include:
    DOD Instruction 6055.06, “DOD Fire and Emergency Services (F&ES)
       Program,” December 21, 2006;
    DOD Instruction 7000.14, “Department of Defense Financial Management Policy
       and Procedures,” March 3, 2006;
    DOD Directive 3025.1, “Military Support to Civil Authorities,” January 15, 1993;
    DOD Directive 3025.15, “Military Assistance to Civil Authorities,” February 18,
       1997;
    Joint Staff Instruction 3630.01A, “Expedited Orders Process for Department of
       Defense Support of Civil Authorities (DSCA),” June 1, 2006; 

    FEMA manuals; and 

    the National Mobilization Guide. 


We also interviewed DOD personnel from the Manpower/Personnel, Operations,
Logistics, Plans and Policy, Training and Exercises, and Finance Directorates in part or in
full at the following activities:
     Assistant Secretary of Defense for Homeland Defense and Americas’ Security
         Affairs,
     Office of the Secretary of Defense (Comptroller)/Chief Financial Officer,
     Joint Staff,
     USNORTHCOM,
     U.S. Army North,
     U.S. Air Force North,
     National Guard Bureau,
     Marine Corp Installations West, and
     Navy Region Southwest.

We also interviewed disaster relief responders from the following organizations: FEMA,
the Department of Agriculture/U.S. Forest Service/NIFC, the California Department of
Forestry and Fire Protection, and the California Office Emergency Services.

Our contacts with personnel in the organizations included discussions on the observances
from previous wildland firefighting efforts and corrective actions taken since then. We
limited our review to the DOD actions taken in anticipation of potential mission
assignments and the handling of the mission assignments, from the initial requests of
local authorities to the performance and financial management of the assigned missions.

In Finding B, the audit team estimated the total cost of assets used by USNORTHCOM
during the 2007 southern California wildland fires. This estimate was calculated using
information obtained from documents provided by officials at a number of activities.
Specifically:
    		 The number of flight hours and cost per flight hour for the aerial imaging assets
        used was provided by officials at U.S. Air Force North. The costs for the Rover
        Uplink were obtained from a mission assignment document created by FEMA.


                                            40
      The documentation including the costs incurred for the staging of the Mobile
       Aeromedical Staging Facility was provided by the FEMA Region IX Mission
       Assignment Coordinator.
      The information used to estimate the cost for the Command Assessment Element
       and the Operational Command Post was obtained from officials at FEMA
       Region IX and U.S. Army North, from USNORTHCOM Command Center
       Operational Updates issued during the fires, and historical General Services
       Administration prices for official travel between San Antonio and Los Angeles.

To calculate the cost, we relied upon data obtained from the aforementioned sources, and
on explanations provided to the audit team by officials at the activities. The cost of
positioning the Mobile Aeromedical Staging Facility was included in our estimate even
though it was reimbursed, because DOD could have been held responsible for the cost
since the positioning was the result of USNORTHCOM’s failure to properly evaluate the
requirements of the mission assignment. Because flight hours were not tracked for the
aerial imaging support provided during the 2008 northern California wildland fires, a cost
estimate for 2008 could not be calculated; therefore, the total estimated cost for assets
used by USNORTHCOM includes only those costs incurred for the 2007 southern
California wildland fire response. Also, the cost estimate calculated for the use of four
Rover Uplinks and teams during the 2007 wildland fire response was questioned by
USNORTHCOM and U.S. Air Force North officials. Officials at USNORTHCOM stated
that the audit team’s cost estimate was too high because it was calculated using costs
from a mission assignment. The officials explained that costs included on mission
assignments are generally excessive amounts in order to ensure that adequate funding is
available for the missions. The USNORTHCOM officials suggested that U.S. Air Force
North or U.S. Army North officials would be able to provide more accurate costs. The
U.S. Air Force North officials stated that the satellite time associated with the Rover use
may be expensive, but there is no cost associated with downloading images from the P-3
aircraft to the Rover units. Additionally, there were temporary duty costs for the teams
operating the units. In their opinion, the audit team’s estimate of the total cost was still
too high. While the U.S. Air Force North officials disagreed with the audit team’s
estimate, they were unable to provide more accurate costs.

Use of Computer-Processed Data
Scanned Documents
        We performed reliability tests on computer-processed data by comparing and
verifying data received from different sources during document reviews and analysis.
The majority of documents obtained during the engagement were scanned copies of
documents. These documents included deployment orders, execution orders, and
requests for forces. Although we reviewed the electronic documents obtained from the
computer systems and cross-referenced them with other documentation, the system itself
was not tested for reliability.




                                            41


USNORTHCOM Online Database
       We tested the reliability of information we used for the audit from the
USNORTHCOM Online Database, but did not assess if the USNORTHCOM Online
Database contained all operating plans applicable to the audit. We confirmed with
USNORTHCOM experts that operating plans we relied on were complete and up-to-date.
Additionally, we confirmed that mission assignment, execution orders, and similar
information we relied on was accurate with information maintained by other sources.
The documents were acquired using the Non-Secure Internet Protocol Router Network.




                                        42


Appendix B. Prior Coverage
During the last 5 years, GAO, the DOD IG, the Army Audit Agency, the Naval Audit
Service, and the Air Force Audit Agency have issued a total of 23 reports related to the
audit. The list consists of reports most directly associated with the objectives of the audit.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DOD IG reports can be accessed at http://www.dodig.mil/audit/reports.
Unrestricted Army reports can be accessed from .mil and gao.gov domains over the
Internet at https://www.aaa.army.mil/.

Air Force Audit Agency reports may be accessed from .mil domains over the Internet at
https://wwwd.my.af.mil/afknprod/ASPs/cop/Entry.asp?Filter=OO by those with
Common Access Cards who create user accounts.


GAO
GAO Report No. GAO-09-444T, “Wildland Fire Management: Actions by Federal
Agencies and Congress Could Mitigate Rising Fire Costs and Their Effects on Other
Agency Programs,” April 1, 2009

GAO Report No. GAO-09-68, “Wildland Fire Management: Interagency Budget Tool
Needs Further Development to Fully Meet Key Objectives,” November 24, 2008

GAO Report No. GAO-08-251, “Homeland Defense: U.S. Northern Command Has Made
Progress but Needs to Address Force Allocation, Readiness Tracking Gaps, and Other
Issues,” May 16, 2008

GAO Report No. GAO-08-433T, “Wildland Fire Management: Federal Agencies Lack
Key Long- and Short-Term Management Strategies for Using Program Funds
Effectively,” February 12, 2008

GAO Report No. GAO-07-1168, “Wildland Fire Management: Better Information and a
Systematic Process Could Improve Agencies’ Approach to Allocating Fuel Reduction
Funds and Selecting Projects,” September 28, 2007

GAO Report No. GAO-07-1017T, “Wildland Fire Management: A Cohesive Strategy
and Clear Cost-Containment Goals Are Needed for Federal Agencies to Manage
Wildland Fire Activities Effectively,” June, 19, 2007

GAO Report No. GAO-07-655, “Wildland Fire Management: Lack of Clear Goals or a
Strategy Hinders Federal Agencies’ Efforts to Contain the Costs of Fighting Fires,”
June 1, 2007




                                             43


GAO Report No. GAO-06-570, “Wildland Fire Suppression: Lack of Clear Guidance
Raises Concerns about Cost Sharing between Federal and Nonfederal Entities,”
May 30, 2006

GAO Report No. GAO-06-643, “Hurricane Katrina: Better Plans and Exercises Needed
to Guide the Military’s Response to Catastrophic Natural Disasters,” May 15, 2006

GAO Report No. GAO-06-671R, “Wildland Fire Management: Update on Federal
Agency Efforts to Develop a Cohesive Strategy to Address Wildland Fire Threats,”
May 1, 2006

GAO Report No. GAO-05-923T, “Wildland Fire Management: Timely Identification of
Long-Term Options and Funding Needs is Critical,” July 14, 2005

GAO Report No. GAO-05-147, “Wildland Fire Management: Important Progress Has
Been Made, but Challenges Remain to Completing a Cohesive Strategy,” January 14,
2005

DOD IG
DOD IG Report No. D-2008-130, “Approval Process, Tracking, and Financial
Management of DOD Disaster Relief Efforts,” September 17, 2008

DOD IG Report No. D-2007-0002, “Use of DOD Resources Supporting Hurricane
Katrina Disaster,” October 16, 2006

DOD IG Report No. D-2006-118, “Financial Management of Hurricane Katrina Relief
Efforts at Selected DOD Components,” September 27, 2006

Army Audit Agency
Army Audit Agency Report No. A-2007-0135-FFD, “Army Fund Accountability for
Hurricane Katrina Relief Efforts,” June 12, 2007

Naval Audit Service
Naval Audit Service Report No. N2007-0039, “Controls and Accountability Over
Medical Supplies and Equipment-Hurricane Relief Efforts,” June 1, 2007

Naval Audit Service Report No. N2007-0009, “Department of the Navy’s Use of
Hurricane Katrina Relief Funds,” January 3, 2007

Air Force Audit Agency
Air Force Audit Agency Report No. F2007-0008-FD1000, “Hurricane Katrina
Supplemental Funds Management,” April 23, 2007

Air Force Audit Agency Report No. F2007-0003-FB1000, “Hurricane Katrina Federal
Emergency Management Agency Reimbursements,” November 20, 2006

                                         44
Air Force Audit Agency Report No. F2006-0036-FDM000, “Air Force Support to Civil
Authorities 145th Airlift Wing, Charlotte Air National Guard Base, North Carolina,”
March 2, 2006

Air Force Audit Agency Report No. F2006-0021-FCI000, “Air Force Support to Civil
Authorities 146th Airlift Wing Channel Islands Air National Guard Base, California,”
January 31, 2006

Air Force Audit Agency Report No. F2006-0013-FBM000, “Air Force Support to Civil
Authorities 153rd Airlift Wing Air National Guard, Cheyenne Air National Guard,
Wyoming,” December 22, 2005




                                          45


Appendix C. Emergency Support Functions
The National Response Plan established 15 Emergency Support Functions covering
various categories of disasters. The National Response Framework slightly adjusted the
titles of the functions. As shown in the chart, a primary agency has responsibility for each
function. The National Response Plan also identified supporting agencies for each
Emergency Support Function. DOD was a supporting agency on all 15 functions. This
chart reflects the titles and primary agencies identified in the National Response Plan.

                      Emergency Support Functions and Their Primary Agencies
         Emergency Support                  Emergency Support Function Primary Agency
            Function Title
  1    Transportation                                   Department of Transportation
  2    Communications                  Department of Homeland Security/Information Analysis and
                                       Infrastructure Protection/National Communications System
  3    Public Works and                 Department of Defense/U.S. Army Corps of Engineers/
       Engineering                   Department of Homeland Security/Emergency Preparedness and
                                                          Response/FEMA
  4    Firefighting                          Department of Agriculture/U.S. Forest Service
  5    Emergency Management          Department of Homeland Security/Emergency Preparedness and
                                                          Response/FEMA
  6    Mass Care, Housing, and       Department of Homeland Security/Emergency Preparedness and
       Human Services                         Response/FEMA/The American Red Cross


  7    Resource Support                                General Services Administration
  8    Public Health and                       Department of Health and Human Services
       Medical Services
  9    Urban Search and Rescue       Department of Homeland Security/Emergency Preparedness and
                                                          Response/FEMA
  10   Oil and Hazardous               Environmental Protection Agency/Department of Homeland
       Materials Response                             Security/U.S. Coast Guard
  11   Agriculture and Natural            Department of Agriculture/Department of the Interior
       Resources
  12   Energy                                              Department of Energy
  13   Public Safety and Security        Department of Homeland Security/Department of Justice
  14   Long-Term Community           Department of Agriculture/Department of Commerce/Department
       Recovery and Mitigation          of Health and Human Services/Department of Homeland
                                                 Security/Emergency Preparedness and
                                           Response/FEMA/Department of Housing and Urban
                                        Development/Department of the Treasury/Small Business
                                                             Administration
  15   External Affairs              Department of Homeland Security/Emergency Preparedness and
                                                            Response/FEMA

                                                46


Appendix D. Defense Support of Civil
Authorities Approval and Performance Process
                                Incident Requiring DoD Assistance                     Legend
                                                                      ACC         Air Combat Command
                CALFIRE                                               AFNORTH     U.S. Air Force North
                                                                      ARNORTH     U.S. Army North
                                                                      ASD(HD&ASA) Assistant Secretary of Defense for
                                   Request for
                                                                                       Homeland Defense and
                                   Resources
 Immediate Response                                                                    Americas’ Security Affairs
   Provided by Local                                       CALOES     CAE         Commanders Assessment
  Military Commander                                                              Element
                                                                      CALFIRE     California Fire
                                                                      CALOES      California Office of Emergency
                                                       Request for                Support
-Task Force Bulldozer           Request for
                                                      Consequence     DEPORD      Deployment Order
-Helicopter Support             Resources
                                                      Management      EXORD       Execute Order
                                                                      FCO         Federal Coordinating Officer
                                                                      FFC         Fleet Forces Command
                                   Request for                        FORSCOM     U.S. Army Forces Command
                NIFC
                                   Resources                          JCS         Joint Chiefs of Staff
                                                                      MARFORNORTH U.S. Marine Forces North
                                                           FEMA
                                                                      NAVNORTH    U.S. Navy North
                                                                      NIFC        National Interagency Firefighting
                                                                                  Center
Modular Airborne                                                      NMCC        National Military Command Center
  Fire Fighting                                                       NRSW        Navy Region Southwest
     System                 Request                      Request
                               for                          for       OCP         Operational Command Post
                           Assistance                   Assistance    RFF         Request for Forces
                                                                      USJFCOM     U.S. Joint Forces Command
           DCO Provides
             Warning on                                                           Support Under Mission
          Pending NIFC or                                                              Assignment
           FEMA Request                                                           (See Appendix E for the
           for Assistance                        DCO/DCE                         Types of Support Provided)


                                                                                               JCS
                               -CAE
    USNORTHCOM
                               -OCP

                                                                                            Staffs and
Begins Parallel Planning                                                                  Prepares Order
With Service Components
(AFNORTH, ARNORTH,                                  Simultaneously
      NAVNORTH,
   MARFORNORTH)                                                                           ASD(HD&ASA)


                     USNORTHCOM Issues Request for
                                                                                    Coordinates With the DoD
                   Forces (if needed) or an EXORD if forces
                                                                                 Executive Secretary and Secretary
                     are already authorized through other
                                                                                            of Defense
                                   methods


                                                                                       Secretary of Defense
                                                                                            Approval
     USNORTHCOM
    Receives Command
      and Control of
                                         Forces Are Assigned From                     JCS Issues EXORD or
          Forces
                                          the Supporting Combatant                     EXORD-Modification
                                         Commander (USJFCOM) to
                                          the Supported Combatant
 Units Perform Tasks Under                      Commander                        USJFCOM, as the Force Provider,
                                              (USNORTHCOM)
    USNORTHCOM and                                                                Issues DEPORDs Through the
     Respective Service                                                             Service Components (ACC,
        Components                                                                      FORSCOM, FFC)




                                                               47


             Appendix E. 2007 Mission Assignments
             DOD received a total of 19 unique mission assignments from FEMA during the 2007
             southern California wildland fires. FEMA amended most of the assignments to cancel,
             extend, or revise the mission. The mission assignments shown below include the
             19 original mission assignments (those ending in the format “DoD-xx”) and the
             amendments to the original mission assignments (those ending in the format “DoD-xx-
             xx”). We grouped the requests into nine general capabilities below.
Capability           Date of         Mission Assignment                          Description of Request                          Cost
 Needed              Receipt           (MA) Number                                                                             (Dollars)
DCO/DCE             10/23/2007       7220SU-CA-DoD-01         Activate/deploy DCO/DCE with supporting staff elements            75,000
                                                              (Regional Emergency Preparedness Liaison Officers and
                                                              Service Emergency Preparedness Liaison Officers) and
                                                              additional planners as required.
                    10/23/2007       3279EM-CA-DoD-01         Activate/deploy DCO/DCE with supporting staff elements and        75,000
                                                              additional planners as required.
                    10/25/2007       1731DR-CA-DoD-03         Activate/deploy DCO/DCE with supporting staff elements and       750,000
                                                              additional planners as required.
  FOSA1             10/23/2007       7220SU-CA-DoD-02         Provide FOSA to support distribution of supplies and             100,000
                                                              equipment. Required 10/23/2007 for 60 days.
                    10/30/2007     7220SU-CA-DoD-02-01        De-obligate $100,000 and close mission. This MA was not          (100,000)
                                                              used; it was replaced by post-declaration MA 1731DR-CA-
                                                              DoD-05.
                    10/23/2007       3279EM-CA-DoD-02         DoD to provide FOSA at March ARB. Required 10/23/2007            100,000
                                                              for 60 days.
                    10/26/2007       1731DR-CA-DoD-05         DoD continues to provide FOSA at March ARB. Support is for       100,000
                                                              up to 60 days.
                    10/24/2007       7220SU-CA-DoD-03         Deliver 10,000 cots (on loan) to Qualcomm, Del Mar, and           50,000
  Cots for                                                    other shelters (no later than midnight on 10/22/2007) as
  Shelters                                                    requested via San Diego OES.
                    10/24/2007       3279EM-CA-DoD-04         DoD to deliver 10,000 cots to Qualcomm, Del Mar, and other        50,000
                                                              shelters as requested via San Diego OES.
Transport of        10/24/2007       3279EM-CA-DoD-03         Provide strategic transport to and from San Diego area of        400,000
MERS Unit2                                                    operations. Include monies for round trip. Pick-up location is
                                                              Denton, Texas.
                    10/24/2007     3279EM-CA-DoD-03-01        Amend to de-obligation and close MA.                             (400,000)
                    12/4/2007      3279EM-CA-DoD-03-02        Provide funding to reimburse DoD/USTRANSCOM for                  45,653.20
                                                              expenses incurred prior to closing the MA. MERS was not
                                                              deployed to San Diego for use at Qualcomm. USTRANSCOM
                                                              flew mission to Ft. Worth to pick up MERS prior to closing the
                                                              MA and incurred the expenses, resulting in the request for
                                                              reimbursement.
 MASF3,4            10/24/2007       3279EM-CA-DoD-05         USNORTHCOM to conduct preliminary planning preparatory            50,000
                                                              to providing aircraft, equipment, and personnel support for
                                                              strategic patient movement.
                    10/26/2007     3279EM-CA-DoD-05-01        Cancel 3279EM-CA-DoD-05. Will re-create with more detail         (50,000)
                                                              under declaration.
                    10/27/2007       1731DR-CA-DoD-07         DoD to provide transportation support to move hospitalized       225,000
                                                              patients. This mission replaces 3279EM-CA-DoD-05.
                    10/28/2007     1731DR-CA-DoD-07-01        Cancel MA, which was submitted as DFA mission; should
                                                              have been FOS.                                                   (225,000)

             Note: See the footnotes at the end of the appendix.

                                                                   48
   Capability        Date of      Mission Assignment                     Description of Request                       Cost
    Needed           Receipt        (MA) Number                                                                     (dollars)
     MASF           10/28/2007    1731DR-CA-DoD-08       Provide support to move hospitalized patients.             225,000
     (cont.)                                             Capability is to be pre-staged at March ARB to reduce
                                                         response time.
                    10/28/2007   1731DR-CA-DoD-08-01     Cancel MA and de-obligate per discussions between          (225,000)
                                                         DoD and FEMA National Response Coordination
                                                         Center.
                    11/19/2007   1731DR-CA-DoD-08-02     Amend to provide funding as FOS mission in the
                                                         amount of $200,000 to reimburse DoD for pre-staging        200,000
                                                         MASF capability at March ARB. Additional funding is
                                                         provided for DFA under a separate MA (1731DR-CA-
                                                         DoD-11).
                    11/19/2007    1731DR-CA-DoD-11       Provide funding as DFA mission for $200,000 to
                                                         reimburse DoD for pre-staging the MASF at March            200,000
                                                         ARB. Funding is provided as FOS under separate MA
                                                         (1731DR-CA-DoD-08).
Aerial Imaging3     10/24/2007    1731DR-CA-DoD-01       Remote Sensing Imagery Support                                1
                    10/25/2007   1731DR-CA-DoD-01-01     Amend and de-obligate per [FEMA representative]               (1)
                    10/25/2007    1731DR-CA-DoD-02       DoD/USNORTHCOM will conduct FMV [aerial                       1
                                                         imaging] flights in support of the wildfires.
                    10/25/2007    1731DR-CA-DoD-04       FMV [aerial imaging] capability for incident awareness     606,000
                                                         and assessment. Provide aerial imagery of fire area.
     DOD            10/27/2007    1731DR-CA-DoD-06       DoD representation and interface with the Multi-
Representation at                                        Agency Coordination Center needed for decisions             20,000
 Multi Agency                                            currently being made without DoD consult.
 Coordination
    Center
 Remove Stuck       11/3/2007     1731DR-CA-DoD-09       Provide resources to extract a D9 bulldozer stuck in the    3,000
  Bulldozer5                                             ground along a fire line.
FOSA for Mobile     11/14/2007    1731DR-CA-DoD-10       Provide FOSA at a location to be approved by FEMA.
   Homes                                                 Will provide space for approximately 105 mobile            250,000
                                                         homes for up to 6 months, from November 26, 2007, to
                                                         February 28, 2008, with review at February 1, 2008, if
                                                         a 3-month extension is needed until May 31, 2008.
                    11/16/2007   1731DR-CA-DoD-10-01     Amend MA to state initial length of time for this          (150,000)
                                                         mission is 60 days, with anticipated extensions up to a
                                                         total of 6 months. Funding is reduced by $150,000 to
                                                         reflect the projected cost estimate of $16,000 per
                                                         month.
         ARB                     Air Reserve Base
         DCE                     Defense Coordinating Element
         DFA                     Direct Federal Assistance
         FMV                     Full Motion Video
         FOS                     Federal Operational Support
         FOSA                    Federal Operational Staging Area
         MA                      Mission Assignment
         MASF                    Mobile Aeromedical Staging Facility
         MERS                    Mobile Emergency Response Support
         OES                     Office of Emergency Services
         USTRANSCOM              U.S. Transportation Command
         1
          FEMA cancelled 7220SU-CA-DoD-02 before DOD took any action. The mission was replaced under
         disaster declaration by mission 1731DR-CA-DoD-05.

                                                        49
2
  FEMA cancelled 3279EM-CA-DoD-03 because the aircraft sent to Texas to transport the Mobile
Emergency Response Support unit was delayed, causing the Mobile Emergency Response Support unit to
choose to drive to the San Diego area instead. FEMA later amended the mission assignment to provide
funding to USTRANSCOM, because the aircraft intended to transport the Mobile Emergency Response
Support unit was already on the way to Texas before the mission was cancelled.
3
  FEMA cancelled 1731DR-CA-DoD-01, 1731DR-CA-DoD-04, and 1731DR-CA-DoD-07 before DOD
took any action.
4
  FEMA and DOD cancelled 1731DR-CA-DoD-08. FEMA later amended the mission assignment to
provide funding to DOD because DOD had actually positioned instead of only planning for the Mobile
Aeromedical Staging Facility before the mission was cancelled.
5
  FEMA cancelled 1731DR-CA-DoD-09. The DCO rejected this mission because of the high level of risk
involved.




                                                 50


Appendix F. DOD Corrective Actions
Resulting From the 2007 California Wildland
Fires
DOD has made a number of improvements based on lessons learned from the 2007
southern California wildland fires. Also, DOD has taken various actions to mitigate the
inefficiencies identified during previous events, including some issues we discussed in
this report. The areas where corrective actions have been implemented are discussed
below.

Emergency Preparedness Liaison Officer Permanently Assigned
to NIFC
       DOD has permanently assigned an Air Force Emergency Preparedness Liaison
Officer to NIFC. During the 2007 southern California wildland fires, the Emergency
Preparedness Liaison Officer provided valuable liaison support between DOD and NIFC.
The assignment is an example of effective measures DOD took to improve coordination
with NIFC.

Assignment of a Liaison Officer to the Geographic Area
Coordination Center During the 2007 Southern California
Wildland Fires
       During the 2007 southern California wildland fires and based upon situational
need, DOD provided a liaison officer to the southern California Geographic Area
Coordination Center. The liaison officer provided a critical coordination function
between NIFC and DOD. DOD plans to continue to provide a liaison to the Geographic
Area Coordination Center or other applicable civil authorities based upon situational
needs.

Improvements to Defense Support of Civil Authorities Support
Implemented by Marine Corps Installations West
        Marine Corps Installations West made improvements to disaster response based
upon its lessons learned from the 2007 southern California wildland fires. Marine Corps
Installations West enhanced guidance available in the execution orders to include detailed
information about immediate response and required responders to conduct a cost,
appropriateness, readiness, risk, legality, and lethality analysis before providing support.
Marine Corps Installations West also entered into a mutual aid agreement with CAL
FIRE to better integrate military assets into local firefighting agencies. Additionally,
Marine Corps Installations West created a draft memorandum for mutual support with the
I Marine Expeditionary Force and a new standard operating procedure for the Marine
Corps Installations West crisis action team.




                                            51


USNORTHCOM Adaptation of the Situational Awareness Team
        USNORTHCOM has revised implementation of the Command Assessment
Element, which is now called the USNORTHCOM Situational Awareness Team. During
the 2007 response, the team did not have optimal coordination with other DOD
responders in the area. As a result of lessons learned from the 2007 southern California
wildland fires, the team is more scalable and is sent out with specialized personnel
tailored for the needs of the incident. The USNORTHCOM Situational Awareness Team
provides situational awareness to USNORTHCOM and can also augment the DCO staff.

Tailoring of Incident Aerial Imaging Assets
        USNORTHCOM tailored incident awareness and assessment assets based on
overall usefulness during the 2007 southern California wildland fires. USNORTHCOM
discontinued the use of the Navy P-3 aircraft for incident awareness because of limited
effectiveness.

Conclusion
DOD should continue to focus on improving civil support based on lessons learned.
Although every response will be different, DOD should continue to develop and improve
procedures and policies to avoid duplicating past mistakes. The areas discussed above, as
well as improvements identified in previous audits, demonstrate that DOD is taking the
initiative to provide more effective civil support.




                                           52


Joint Staff Comments






                                     THE JOINT STAFF
                                       WASHINGTON, DC




            ZIP Code:                                             DJSM 30493-09
       20318-0300                                                 03 September 2009


       MEMORANDUM FOR THE INSPECTOR GENERAL, DEPARTMENT OF
                       DEFENSE

       Subj ect: DOD Civil Support During the 2007 and 2008 California Wildland
                 Fires

       1. Thank you for the opportunjty to comment on the draft report concerning
       DOD support during the 2007 and 2008 Southern Californ ia fires.' The Joint
       Staff nonconcurs with its recommendations as written and provides the
       enclosed comments for consideration .

       2. The Joint Staff     of contact is




                                              ~E~
                                              B. E. GROOMS
                                              RADM, USN
                                              Vice Director, Joint Staff




       Enclosure

       Reference:
       I DOD(IG) Draft Report dated July I , 2009, "DoD Civil Support During
           the 2007 and 2008 California Wildland Fires: Project No. 02008-
           DOOOCG-0246.000




                                                        53
                                  ENCLOSURE

   DOD Civil Support During the 2007 and 2008 California Wildland Fires

1. Joint Staff comments to OOO(IG) recommendations are found in the bold
text below.

    a. Gene ral comment: Overall, it is the Joint Staff position that
adequate doctrine and policy exist for the recommendations being
addreaaed below (with the exception of recommendation B. I .b). The issue
is compliance with existing doctrine and polley.

   b . If additional guidance is to be is sued, it will be focused on
complying with current doctrine and policy. Additional guidance can be
incorporated when Joint Publication 3-28, "Civil Support," 14 September
2007, undergoes an update in FY 09-FY 10.

2. Comments

    a. In section that reads: B.l. We recommend that the Chairman, Joint
Staff:
                       Click to add JPEG file
       III Issue procedures that requ ire all mission assignments not
generated at the Joint Field Office and Regional Defense Coordinating Officer
level to be staffed and coordinated at the Defense Coordinating Officer level to
ensure appropriate personnel involved in oper ations win be consulted prior to
the acceptance of a mission assignment, conditions permitting.

        (21 Comment: Joint Publication 3-28 provides adequate,
overarching, guidelines and principles concerning the Request for
Assbtance (RFA) I MI..lon Assignment (MA) proces• . Specifically,
concerning MAa not generated at the JFO, JP 3-28 statea (page D-3), "In
all caaea, the supported CCDR and the affected DCO must be notified to
limit redundant coordination of resource•. " This notification,
accomplished through the Joint Staff to the supported combatant
command, is the coordination necessary to ensure appropriate personnel
involved in the operation are consulted prior to the acceptance of a
mission assignment. The procedures are clearly outlined in the doctrine,
they muat be followed.

        (3) In crease information on legality and surveillance by DoD assets as
part of trainin g and exercises for personnel validating, processing, and
performing Defense Support to Civil Au thorities m issions.

      (4) Comment: On 13 July 2009, Commander, USNORTHCOM
submitted a memorandum/request to the Secretary of Defense requesting

                                                                        Enclosure




                                                 54
                                                                                      Final Report 

                                                                                       Reference






broader authorities to conduct IAA missions supporting USNORTHCOM
operational preparation of the environment (OPE) and operational
planning in anticipation of requesta for DOD support associated with
catastrophic event(s). Commander, USNORTHCOM Is speclflcaUy
requesting an exemption from the DOD (Foreign Intelligence) FI and
(Counter InteUigence) CI guidance Ilmltatlona to enable utilization of IAA
assets and capablitles for mlaalons In support of the OSCA EXORD. If
granted, approval guidance will be incorporated as a reference to the
DSCA EXORD to facilitate OPE and operational planning in anticipation of
requesta for DOD support for cataatrophic eventB, prior to an approved
RFA or Mi••lon Assignment.

        (6) Revise Joint Publication 3-28, "Civil Suppor t," September 14 , 2007.
to specifically state the even ts that trigger the Defense Coordinating Officer's   Revised
handoff of DoD forces responding to an incident.

       (7) Comment: The Joint Staff does not concur with detaling
events and trlgger. within joint doctrine for DCO handoff of DOD forces
responding to an incident. Command and control of DOD forces OPCON
to the COCOM, to include the "handoff" of forces within the command,
remaina a CCDR' s decision .
                      Click to add JPEG file
       (8) Joint PubUcation 3 ·28 provides overarcbing guidelines and
principles to a .. ist commanders and their staffs in planning and
conducting Joint civil support operations. The Joint PubUcation provides
guidance for the exercise of authority by combatant commanders and
other joint force commanders and prescribes joint policy for operations,
education, and training. The Joint Publication provides military guidance
for use by the Services In preparing their appropriate plans. The Joint
PubUcation fa authoritative in nature and should be followed when
possible, but alao aUows combatant commanders to deviate in extreme
circumstances.

    b. In section that reads: C.l. We recommend that the Chairman, Joint
Staff specify the roles and responsibilities of the Defense Coordinating Officer
                                                                                    Revised
as they pertain to disaster assistance and support for civil authorities.

      (I) Comment: Joint Publlcatlon 3-28 provides more than adequate
guidance concerning the roles and responsibilities of the DCO.

      (2) That guidance can be found In Chapter II (DOD Operational
Environment), Section 4 (Roles and Responsibilities) and Section 5
(Command and ContrOl).




                                        2                               Enclosure




                                                55
Under Secretary of Defense (Comptroller)/Chief Financial
Officer Comments




                                  OF THE UNDER SECRETARY OF DEFENSE
                                      1100 DEFENSE PENTAGON
                                      WASHINGTON . DC 20301-1. 100

                                                                                       JUL 2 8 2009
    COtolP'TROll.£A



           MEMORANDUM FOR PROGRAM DIRECTOR, ACQUISITION AND CONTRACT
                            MANAGEMENT SERVICE, OFFICE OF INSPECTOR
                            GENERAL, DEPARTMENT OF DEFENSE

           SUBJECT: 000 OIG Draft Audit Report D2008-DOOOCG-0246.000, " DoD Civil
                    Support During th e 2007 and 2008 California Wildland Fires," July 1,2009

                  This memorandum is in response to the subject draft audit report provided to
          this office for review and comment. Upon review of the draft report, we concur with
          the Office of Inspector General, Department of Defense recommendation. Our
          detailed response to the report findings and recommendations is outlined in the
          attachment.

                 The Department appreciatcs the              to commcnt on thc subject report.
          My staff point of contact on this                             can be contacted by
          telephone a~r e-mail
                                     Click to add JPEG file
                                                       /




                                                      I ~~I-  rk: E. Easton
                                                           , eputy Chief Financial Officer

          Attachment :
          As stated




                                                  G


                                                                  56
                 Draft Report on 000 Civil Support During the 2007 

                         and 2008 California Wildland Fires 

                       (projeci No. D2008-DOOOCG-0246.000) 



The Department of Defense Office of the Inspector General recommended that the Under
Secretary of Defense (Comptroller)/Chie f Financial Officer:

RECOMMENDATION 82: Issue policy requiring that units deployed to U.S. Northern
Command in response to a mission assignment report financial matters afthe support
through U.S. Northern Command until the unit identifies that a final request has been
submitted, regardless of when the unit redeploys from U.S. Northern Command. The
policy should also include controls that will require reimbursement requests to be
reviewed by a component familiar with the or iginal request for assistance so that
chargebacks resulling from reimbursement requests th at are not with in the scope of the
original request can be reduced .

DoD RESPONSE: Concur. The Office orthe Secretary or Defense (Comptroller)
(OUSD(C)) will issue guidance requiring all Components, tasked by U.S. Northern
                             Click to add JPEG file
Co mmand (USNORTHCO M) to provide support/assistance to the Federal Emergency
Management Agency, coordinate their reimbursement requests with USNORTHOM, or
their designee, and regularly report financial information to USNORTHCOM, or their
designee, unti l the miss ion assignment has been closed.
Estimated Compl etion Date: September 30, 2009




                                                       57
U.S. Northern Command Comments
 





                                        STATES NORTHERN COMMAND



                                                                                       JUl30 2009


      MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FOR AUDITING OFFICE OF
                     THE INSPECTOR GENERAL DEPARTMENT OF DEFENSE

      FROM: Inspector General, USNORTHCOM
            250 Vandenberg St., Ste. B016
            Peterson AFB CO 80914-3804

      SUBJECT: DOD IG Draft Report Civil Support During the 2007 and 2008 California
               Wildland Fires (Project No. D2008-DOOOCG-0246.000)

      1. Attached is the USNORTHCOM response to DOD Civil Support During the 2007 and
      2008 Ca lifornia W ildland Fires (Project No. D2008-DOOOCG-0246.000).

      2 . The Command's rei • •~fo
                                 .r.t~heill~I• • •re.co
                                                     .rn.rn.e.n.d~a~
                                                                   tio.n.s~iisiat.a~tta
                                                                                     =c~hrn
                                                                                         .en~t.o.nie .
      Our point of contact is
                                  Click to add JPEG file


      Attachment:
      USNORTHCOM Response




                                                                 58
                                                                                              Final Report 

                                                                                               Reference






                  DOD IG DRAFT REPORT - DATED JULY 1, 2009
                      (Proj ect No. D2008·DOOOCG'()246.000)

                    DOD Civil Support Dur ing the 2007 and 2008
                             California Wildland Fires

            USNORTHCOM Commenlto the DOD IG Recommendations



RECOMMENDATION B.1 : We recommend that the Chairman, Joint Staff:

      a. Issue procedures that require all mission assignments not generated at the
      Joint Field Office and Regional Defense Coordinating Officer level to be staffed
      and coordinated at the Defense Coordinating Officer level to ensure appropriate
      personnel involved in operations will be consulted prior to the acceptance of a
      mission assignment, conditions permitting.

      b. Increase information on legality and surveillance by DOD assets as part of
      training and exercises for personnel validating. processing, and performing
      Defense Support to Civil Authorities missions.

                          Click to add JPEG file
      c. Revise Joint Publication 3·28, "Civil Support: September 14, 2007, to
      specifically state the events that trigger the Defense Coordinating Officer's         Revised
      handoff of DOD forces responding to an incident.

USNORTHCOM RESPONSE: Non Concur; (Critical comment) Chairman , Joint Staff
recommendation B.1.c. should be removed because Joint doctrine provides broad
overarching guidance based on proven fundamental principles. These principles help
guide the employment of forces in coordinated and integrated actions towards a
common objective but they should not direct specific detailed actions and thus hamper
the initiative of the Commander. Providing specific trigger pOints are inappropriate for
inclusion in joint doctrine.


RECOMME NDATION B.2: We recommend that the Under Secretary of Defense
(Comptroller)lDOD Chief Financial Officer issue policy requ iring that units deployed to
u.s. Northern Command in response to a mission assignment report financial matters
of the support through U.S. Northern Command until the unit identifies that a final
request has been submitted , regardless of when the unit redeploys from U.S. Northern
Command. The policy shou ld also inclu de controls that will require reimbursement
requests to be reviewed by a component familia r with the original request for assistance
so that chargebacks resulting from reimbursement req uests that are not within the
scope of the original request can be reduced .

USNORTHCOM RESPONSE: Concur.




                                                       59
                                                                                                Final Report 

                                                                                                 Reference






RECOMMENDATION B .3: We recommend that the Commander, U.S. Northem
Command :

      a. Review existing processes to ensure that U.S. Northern Command's methods
      for obtaining situational awareness and command and control of DOD assets
      required during civil support are necessary to complete the mission and are
      obtained in the most efficient and cost-effective manner.

      b. Request funds as part of the normal annual budget that can be distributed to
      DOD assets used by U.S. Northern Command to perform situational awareness
      for civil support missions.

       c. Update the effective version of U.S. Northem Command Concept Plan ,                 Revised and
       "Defense Support of Civil Authorities," to reflect the language of the revised Joint   renumbered
       Publication 3-28 ~ Civil Support, ~ as discussed in recommendation B.1.c.              Recommendation
                                                                                              B.3.d.
USNORTHCOM RESPONSE: B.3.a: Concur. B.3.b: Concur. 8.3.c: Non Concur:
(Substantive comment) Commander, U.S. Northem Command recommendation 8.3.c.
should read , uUpdate the effective version of U.S. Northern Command Concept Plan,            Additionally, we
"Defense Support of Civil Authorities," to reflect factors , such as size of DOD forces and   added
dispersion of forces, that influence the decision process on when to transition C2 of         Recommendations
                          Click to add JPEG file
forces from the DCO to a Task Force or Joint Task Force Commander." This will reflect
the deletion of JS recommendation B.1.c. and retain the flexibility of the CCDR and
                                                                                              B.3.c and B.3.e.
operational commanders during operations.


RECOMMENDATION C.1: We recommend that the Chairman, Joint Staff specify the
roles and responsibilities of the Defense Coordinating Officer as they pertain to disaster
assistance and support for civil authorities.

USNORTHCOM RESPONSE: Concur.


RECO MMENDATION C.2: We recommend that the Assistant Secretary of Defense for
Homeland Defense and Americas' Security Affairs issue new policy or update DOD
Directives 3025.1, "Military Support to Civil Authorities," January 15, 1993, and 3025.1 5,
"Military Assistance to Civil Authorities," February 18, 1997, or other appropriate
directives to:

       a. Require units preparing for immediate response, acting in anticipation of a
       mission aSSignment, or providing mutual aid to report their actions to the Defense
       Coordinating Officer or the Geographic Combatant Commander if the support
       could coincide with other civil support.    .

       b. Clarify the evaluation requirements for units conducting immediate response to




                                                       60
    document the validation of the request for assistance using the cost,
    appropriateness, readiness, risk, legality, and lethality analysis, time permitting.

    c. Provide a uniform time frame for reporting immediate response.

    d. Require Services to develop plans, guidance, or ag reements with civil
    authorities regarding the disengaging of DOD resources providing immediate
    response and transitioning the support back to civil authorities.

    e. Emphasize the requirement that units providing immediate response support
    supplement verbal requests with written documentation and clarify what
    information should be contained in the written request.

USNORTH COM RESPONSE: Concur.




                        Click to add JPEG file




                                                      61
Assistant Secretary of Defense for Homeland Defense and
Americas' Security Affairs Comments




                                   OFFICE OF ASSISTANT SECRETARY OF DEFENSE
                                             2.600 DEFENSE PENTAGON
                                            WASHINGTON , D .C. 20301-2.600


          .. ' ........ 0 _"u.s.
                                                                                           AUG 06 Z009
  & A.W.PICAS' MC:UIlIn ""'AlliS



               MEMORANDUM FOR THE INSPECTOR GENERAL, DEPARTMENT OF
                               DEFENSE, ATIN: PROGRAM DIRECTOR, ACQUISITION
                               AND CONTRACT MANAGEMENT

               SUBJECT: 000 Civil Support During the 2007 and 2008 California Wildland Fires
                        (Project No. D2oo8-DooOCG-0246.0oo)

                    Thank you for the opportunity to review the 000 Inspector General's Report on
               000 Civil Support during the 2007 and 2008 California Wildland Fires.

                      Our comments to the DoD Inspector General's recommendations are enclosed
               with supporting justifications. OUf point of contact for this action is _            .
               Defense Support of Civil Authorities, _                .


                                           Click to~~LJ~
                                                   add JPEG file
                                                       Theresa M. Whelan
                                                       Deputy Assistant Secretary of Defense
                                                       Homeland Defense Domains and
                                                          Defense Support of Civil Authorities



               Attachments:
               As Stated




                                                                   62
                 Department of Defense Office of the Inspector General 

                               Draft of Proposed Rep ort 

          DoD Civil Support During th e 2007 and 2008 Ca lifornia Wildland Fires 

                         (Projed #: D2008-DOOOcg-0246.000) 


        OASD(HD&ASA) Comments to DoD Inspector Genera l Recommendations 


The DoD Inspector General report titled, DoD Civil Support During the 2007 and 2008
California Wildland Fires, requires that OASD(HD&ASA) respond to Findi ng C : " DoD Policy
for Civ il Support," recommendation C.2 (page 30):

" C.2. We recommend that the Assistant Secretary of Defense for Homeland Defense and
Americas' Security Affairs issue new policy or update DoD Directi ves 3025.1 , "Military Support
to Civil Authorities," January I S, 1993, and 3025.15, "Military Assistance to Civil Authorities,"
February J 8, J997, or other appropriate directives to:

   Recommendation a : Require units preparing for immediate response, acting in anticipation
   of a mission assignment, or providing mutual aid to report their actions to the Defense
   Coordinating Officer or the Geographic Combatant Commander if the support could coi ncide
   with other civil support (page 30).
                                Click to add JPEG file
   Proposed Response: Di sagree.

   Justifi cation : There is existing guidance that addresses the three areas that the report
   recommends in paragraph C.2.a that DoD issue new policy or update current policy for each
   of the areas addressed:

    I) 	 Immedi ate Response:

       • 	 Deputy Secretary of Defense memorandum (dated April 25 , 2005), titled, "Reporti ng
           Immediate Response Requests of Civil Authorities," directs that ..... the military
           commander, or responsible DoD official of a Do D component or agency rendering
           such assistance, shall report the request, the nature of the response, and any other
           pertinent infonnation through the chain of command to the NationaJ Military
           Command Center. Each level in the chain of comm and will make expeditious
           notification to the next higher authority." (TAB C)




                                                            63
   • 	 DoD Directive 3025. 15, Military Assistance to Civil Authorities, paragraph 4.7. t. "As
       soon as practical, the DoD Component or Command rendering assistance shall report
       the fact ofthe request, the nature of the response, and any other pertinent infonnation
       through the chain of command to the DoD Executive Secretary. who shall notify the
       Secretary of Defense. the Chairman of the Joint Chiefs ofStatT, and any other
       appropriate officials." (TAB D)


   • 	 Chairman of the Joint Chiefs of StafT Standing Defense Support ofCivii Authorities
       Execute Order (May 28, 2008), para. IOJ, Immediate Response: "Commanders or
       responsible ODD officials will report all actions and support provided through the
       appropriate chain of command to the National Military Command Centcr (NMCC)
       ...1A W Refs A [DoDD 3025.1] and F [Deputy Secretary of Defense memorandum] ,
       and provide a copy to the Geographic Combatant Commander." (TAB E)

2) 	 Mutual Aid:

   • 	 Mutual aid and assistance is governed under title 42 , United States Code § t 856(b):
       Under current policy DoD Directive 3025. J, Military Support to Civil Authorities,
       and DoD Directi ve 3025.15, Military Assistance to Civil Authorities, mutual aid is not
                              Click to add JPEG file
       DSCA This support is governed under title 42 and by DoD policy as an emergency
       management function in DoD Instruction 6055.06, DoD Fire and Emergency Services
       Program , paragraph 5.5. t t : " Implement procedures to report F&ES [Fire and
       Emergency Services] activities using the National Fire Incident Reporting System
       (NFIRS)."

   • 	 Mutual aid is included as DSCA in the draft 000 Directive, 3025.dd, Defense
       Support ofCivil Authorities, and will include guidance on the role o f the Combatant
       Commander and Mil itary Services with regard to reporting support provided under
       title 42.

3) 	 Requests   fo~A ss istance :


   • 	 DoD Directive 3025. t 5, Military Assistance 10 Civil Authorities, paragraph 4.1 , "The
       Department of Defense shall cooperate with and provide mi litary assistance to civil
       authorities as directed by and consistent with app licable law, Presidential Directives,
       Executive orders, and this Directive." (TAB D)

   • 	 Chairman of the Joint Chiefs of Staff Standing Defense Support of Civil Authorities
       Execute Order (May 28, 2008), paragraph I.G, "000 provides DSCA as directed by



                                                                                              2




                                                         64
       the President or SeeDer in response to a PA (Primary Agency] request for assistance,"
       (TAB E)


Recommendation b: Clarify the evaluation requirements for units conducting immediate
response to document the val idation of the request for assistance using the cost,
appropriateness, readiness, risk,legality, and lethality analysis, time pennitting.


Proposed Response: Di sagree.

Justification: There is existing guidance that addresses the evaluation requirements for units
conducting immediate response using the approved validation criteria in current Directive
3025.15, Military Assistance to Civil Authorities, paragraph 4.2, 4.7, and 4.7.1. (TAB D)


   • 	 DoD Directive 3025.15, Mililary Assistance to Civil Authorities, paragraph 4.2, "All
       requests by civil authorities for 000 military assistance shaH be evaluated by DoD
       approval authorities against the following criteria." Subordinate paragraphs describe
       those criteria as: legality, lethality, cost, ri sk, appropriateness and readiness.


                          Click to add JPEG file
   • 	 DoD Directive 3025.15, Military Assisrance (0 Civil Authorities, paragraph 4.7,
       " Requests for military assistance [see paragraph 4.2] should be made and approved in
       the following ways... " The following subordinate paragraph to 4.7. is 4.7.1.
       "Immediate Response."



Recommendation c; Provide a unifonn time frame for reporting immediate response.

Proposed Response: Disagree.

Justification: Operational commanders direct reporting times.



Recommendarlon d: Require Services to develop plans, guidance, or agreements with civi l
authorities regarding the disengaging o f DoD resources providing immediate response and
transitioning the support back to civi l authorities.

Proposed Response: Disagree.

Justification: Operational commanders should determine the appropriate time when support
of civil authorities has achieved immediate response obj~cti ves. ''to save lives, prevent


                                                                                                 3




                                                        65
human sufferi ng. mitigate great property damage under imminently serious cond itions" (000
Directive 3025.1) to disengage with civil authorities . This decision point should be discussed
in operational guidance.



Recommendation e: Emphasize the requirement that units providing immediate response
support supplement verbal requests with written documentation and clarify what infannation
should be contained in the written request.

Proposed Response: Agree.

Justification: 000 Directive 3025.15, Military Assistance 10 Civil Authorities, paragraph
4.7.1, " Immediate Response," directs that "Civil authorities shall be informed that verbal
requests for support in an emergency must be fo llowed by a written request," and that "if the
report does not include a copy of the civil authorities' written request, that request shall be
forwarded to the 000 Executive Secretary as soon as it is available." (T AS D) The draft
000 Directive 3025.dd, De/ense Support o/Civil Authorities, will include language outlining
the basic information for a request, such as requirement requested, time period support is
required, and reimbursement information.
                         Click to add JPEG file
Prepared By:




                                                                                             4




                                                        66
U.S. Marine Corps Comments
 





                                                            Of THE NAVV
                                       O" "'Co.   , .., ... ,..... ,   n~ ·   ... ••
                                        I," tuu n .o......0    l" ~'~ Q~~ I '''l



                                                                                       August 1. 2009


              MEMORANDUM FOR NAVY I NSPECTOR GENERAL ( AUDIT AND COST
                                       MANAGEMfNl1

              SUBJECT:     DODIG Draft Report "DOD Civil Support During the 2007 and
                           2008 California Wildland Fires" dated Juiy 1.2009 (Projcct No.
                           N200s·DOOOCG·0246.000

              ENCL:        (I) USMC memo 7510 RFR· 80dtd 27 Jul 09

              I. We have reviewed the dnlfl DOOIG Report and concur with eonuncnts
              provided in the enclosure.

              2. Please contac~                                          if you have further questions.




                                                        ~   Deputy Ass.iStanl Secretary of the Navy
                                                             Infrastructure Strategy Ilnd Analysis

                           Click to add JPEG file




                                                                         67
                           DEPARTMENT OF THE NAVY
                      HEADQUARTERS UNITED STATES MARINE CORPS
                            3000 MARtHE CORPS PENTAGON
                              WASHINGTON, DC 2()35G.3000        IN AEPl.YIW'UI TO­
                                                                7510
                                                                RFR-80
                                                                27 Jul 09

MEMORANDUM FOR ASSISTANT SECRETARY OF THE NAVY (INSTALLATION AND
                 ENVIRONMENT)

Subj! 	 OODIG DRAFT REPORT,       "'DOD CIVIL SUPPORT DURING THE 2007
         AND 2008 CALIFORNIA WILDLAND FlRES,u DATED JULy
         1, 2009 (PROJECT NO. D2008-DOOOCG - 0246.0CO)

Ref; 	   (al   DODIG email of 6 July 2009

Enel; 	 (ll Marine Corps offieial comments

1. In accordance with reference (a), the Marine Corps has
reviewed the subject draft report and provides comments at the
enclosure.




                                   ~
                                  C. K. DOVE
                           By direction of the
                     Commandant of the Marine corps




                                                  68
                                                                             Final Report 

                                                                              Reference






               DoDIG DRAFT REPORT - DATED JULy 1 , 2009
                  Project No. D2008-DOOOCG-0246.000

              !lOoD Civil Support During the 2007 and 2008
                       California Wildland Fires"


                  UNITED STATES MARINE CORPS COMMENTS

1.   In the report section ~Fi ndings C~ it is noted that the DoD
does not have policy that requires componentB to report
preparation activities prior to acting under immediate response
authority, in anticipation of a mission assignment, or under
mutual aid.

Refer to the following excerpts:

(Page 26)  "Also, 000 does not have policy that requires                   Revised
components to report preparation activities prior to acti ng
under immediate response authority, in anticipation of a mission
assignment, or under mutual aid. N

(Page 27) ~Unit s are not required by 000 Directives 3025 . 1 and
3025.15, ~Military Assistance to Civil Authorit1eo,N February
                    Click to add JPEG file
18, 1997, to report their actions to decision making authorities
when preparing for immediate response or an anticipated request
for assistance prior to initiating the support or when providing
mutual aid. H

In the Conclusion of the report. recommendation C.2(a) states:

~a. Require units preparing for immediate response, acting in
anticipation of a mission assignment. or providing mutual aid to
report their actions to the Defense Coord inat i ng Officer or the
Geographic Combatant Corrmander if the support could coincide
with other civil support."

We agree that Recommendation c.2(al is appropriate for
preparations for receiving a mission assignment, but do not
be1'1eve this policy could be achieved for i mmediat e response or
especially for mutual ~id activity .

It is extremely important that any future policy is explicit in
i ntent. Our DoD fire and emergency services departmentD enter
into mutual aid agreements based on the authority to do so
provided by Section 1856(a), Title 42, of the United States
Code, with implementing i nstructions provided by DoD Instruction
6055.06 "Fire and Emergency Services ProgramN •  As such. our
fire departments could be considered as taking ·preparatory
activity" for providing mutual aid on any given day that they


                                    1
                                                             Enel   (1.)




                                          69
              DoDIG DRAFT REPORT - DATED JULy 1, 2009 

                 Project No. D2008·DOOOCG-0246.000 


             "DoD Civil Support During the 2007 and 2008 

                     California Wildland Fires ft 





train or prepare to conduct fire fighting activity. We should
prevent any policy from being established that. wou ld require
such reporting. Even if specified that the reporting is only
necessary when ~support could coincide with other civil
support", as the recommendation does, it may become problematic.
It can be difficult to determine when a local response will
escalate into a larger incident requiring mUlti-agency re sponse,
and more so the moment in time when our preparatory activity
changes from 'in support of mutual aid ' to 'in support of civil
support', making it near impossible for commanders to adequately
or fully comply with this reporting requirement.

2 .   Additional management   co~ments:


    a. Defense Coordinating Officers (DCOs) are not designated
military commanders. As described in the 2008 Standing CJCS
EXORD for Defense Support of Civil Authorities, a DOO's role is
to serve a s the single DOD point of contact for the FEMA Region
                   Click to add JPEG file
and associa t ed Federal Coordinating Officer (FOOl to review,
validate and provide a recommendation with regards to a FEMA
Request For Assistance (RFA). Prior to USNORTHCOM assumption of
responsibilities, 5~h U.S . Army and l at U.S. Army designated
Training Support Brigaoe Commanders wi th the collateral duty of
being a 000. As Brigade Commanders, the ncos were screened and
designated military commanders with significant staff resources
to draw upon. In the current construct, OCOa are not screened
and de6ignated military commanders nor do they have significant
staff resources in their five to seven person Defense
Coordinating Element.

    b. The Department of Defense policy for Immediate Reoponce
Authority applies to local commanders responding to local
civilian authorities ' when imminently serious conditions exist.
It is inaccurate to imply that this policy gives either the
Combatant Commander (CCDR) or DCO command authority or dirlauth
with a unit re sponding under I mmediate Response. Per the CJ CS
EXORD for DSCA, the CCDR is informed of a unit responding under
Immediate Response when the National Military Command Center is
informed .

    c. Although the DCO is the single point of contact in the
Federal Joint Field Office (JFO) , there i s no restriction on
installation c ommanders providing a liaison to local civilian
Emergency Opera~ion Center (EOe) during an incident.


                                    2
                                                             Encl (1)




                                          70
                                                                              Final Report 

                                                                               Reference






              DoDIG DRAFT REPORT - DATED JULy 1, 2009
                 Project No. D2008 - DOOOCG-0 2 46.000

            "DoD civil Support During the 2007 and 2008
                    Ca l ifornia Wildland Pires"

      d.  Page i, paragraph ~ What We Found~ and ~Joint Sta f f
Concern 2-Task Force Bulldozer N , page 1 2 , incorrectly i d entifi e s
p e rformance of Task Force Bulldozer as "Immediate Re s ponse".            Sections d. and e.
SOCAL Fires started on 20 October 2007.      In the DODIG Report,           were subsequently
Task Force Bulldozer performed activity on 26 Oct 2007. CDR
USNORTHCOM issued PRAGO to USNORTHCOM EXORD establishing JOA                redacted by the
within SOCAL on 23 Oct 2007. DSCA authority was ~in effect by     ft
                                                                            Marine Corps.
26 Oct 2007; Immediat e Respo nse (normally, not more than 72
hours) was no longer appro priate authority for independent 000
activity not under DSCA Authority .

       e. Page 29, paragraph ~Helicopter As s ets Depl o yed by t h e
u.s.   Marine corps . ~ Helicopters were initially deployed under
t h e P&BS Program-based MOU signed by Mel WEST .   5 helicopters
were eventually depl oyed to Northern Califor nia to support WFF
operations under USNORTHCOM DSCA authority . Hel icopters in
SOCAL continued to support local WFF requirements under F&ES
Program MOA authority.

     f.
                   Click to add JPEG file
         Page 2 9 , ~ L i aison Support by Installat i on Commanders. w
Installatio n Comma nders can provide Liaison Off i cers to Local
civil Authorities ISO Immediate Response and F&ES Program
employed aooeto . However, Installation Lia i son Offi c ers should
not be engaged with the DCO, the RRCC, the JTF, or any other
e lement of the Joint Command archi tecture.      The appropriate
lia ison element to CDR USNORTHCOM's DSCA , is the MARFORNORTH
 (Service Component Command) represe ntat i v e .




                                    3
                                                                 Enel (1)




                                           71
U.S. Marine Corps Action Officer Followup Comments
 





           e Marine Corps appreciates the opportunity for continued di alogue eoneeming the
        Department of Defense Office o f InspC!ctor General (OODIG) Report on DoD Civil
        Support During the 2007 and 2008 Califomia Wildl ,Uld Fires, Project No. 02008-00008-
        DOOOCG-0246.000. Additi onall y, U1 C Marine Corps agrees that the pre-9/ I I DoD
        Direct ives 3025. 1 ~U1 d 3025. 16 need to be updated in order to provide decision makers
        with infonnation on ,,11 actions conducted in support of disasler relief operations. We
        look forward to Ollr coordinated eITort in refinin g the proposed recommendations so that
        we can provi de the necessary guidance to cOlllmanders for supportin g domestic
        operati ons without negati vely impacting on the responsibility of the military services to
        man, train and equip mil itary fo rces to defend the Nation .

        Understanding how the Department of Defense (0 0 0 ) provided support during the 2007
        and 2008 Califomia Wi ldland Fires requires an understandin g orthe authorities and
        policies under which DoD s upport is provided. When rul incident occurs in the
        Continental United Stales that re{luires Federal support, Commander United States
          orthcm Conunand (CDRUSNORTHCOM) is responsible for leading the military fo rces
        that the Secretary of Defense has directed to support the Federal response either under the
        Stafford Act or in accordance with the Economy Act. Incidents occllr frequentl y at the
        loca llcvcl and do not require Federal assistance, bulmay temporarily overw helm local
        civilian authorities. Local milit~try commanders may respond to req uests from local
        domestic civil authorities in accordance with Oo l)"s policy for Immediate Response or
        under the authority delegated by Title 42, section 1856a. Understanding the distinction
                                   Click to add JPEG file
        between a local incident invo lvin g local mil itary comm anders and local civilian officia ls
        verses a Federal response involvi ng the combatant commander is essential to
        underst.mding how Do D provides support to domestic operations. TIl e purpose o f Title
        42, section 1856a ruld the Immediate Response policy is to provide local commanders the
        ability to respond at the local leve l and if need be, recei ve support from local authorities,
        not to give CDRUS 10RTHCOM the authori ty to respond to an inc ident prior a directed
        Federal response.

        TIle IRp uty Sccretary of Defense rvlclllorruldulll on Reportin g Immediate Response
        Req ucsts from Civil Authoriti cs dated April 25, 2005 and the SECDEF approved
        Standing CJCS EXORD for Defense Support of Civil Authorities provides the necessary
        guidance to commanders for reporting Imm ediate Response. ·Ill e purpose of the
        DEPSECDEF Memo was to clarify the reporting chain fo r Immediat e Respo nse and the
        NMCC's responsibility fo r notifying the senior 000 leadership. Subsequently the CJCS
        EXORD established th e rcquircment 10 provide a copy of Imlll cdiate Response rcports to
        the geographic combalru1t commander. II is the prerogative o f C DR US NORTH COM to
        info nll the DCa. Requiring local COllUllru1dcrs to report Immediate Response request to
        the DCO goes against the intent of the April 25, 2005 DEPS ECE F Memo by establishing
        an additional reporting chain .U1d creates conf usion over the purpose of the! required
        rli:porting.

        Since the 2007 - 2008 Wild Fires, as a pntdent planning practicc the Marin e Corps has
        strongly encouraged its install:ltion commanders to be proacti ve and engage local civilian
        authorities in planning to provide lllutun1 support and being prepared to respond to




                                                                   72
request for inunediale assistance. Requiring comm anders 10 report to the DCO anyt ime
that they are preparing to respond to a locn l request establishes a report ing link to the
DCO and impli es that the DCO has DIRLAUTH with the local commanders when helshe
does not. TIle current reporting process was intentionally kept simple in order facilitate
the s uccessful notification to SEeDEF. Injccting additi onal reporting requiremcnts ri sks
providing a timely response to SECDEF. Instead, the focus should be on educating
comm andcrs at every leve l on the reporting requirements and following the direction in
both the DEPSECDEF Memo iUld CJCS EXORJ) for n SCA. Policy revision is not
necessary; compliance with existence policy will satisfy the requirement.

TIle l\'larine Corps concurs with the rcconuncmdation to codify and define the roles and
responsibilit ies of the nco. I'er the CJCS EXORD for DSCA, the DCO serves as the
sin gle 000 point of contact fo r the applicable FEMA Region and the Federal
Coordinat ing O ffi cer for requesting ass ishmce frolll 000. Additionally Joint Publication
3-28 states: "'111C co-I oc<ltion o f the JTF comm and element will not repl:lce the
requirement for a DCOfDCE liS part ofthc lFO coordination stafT and the ITF command
element will not coordinate requests for assistance." Add iti onally, JP 3-28 states, "When
requested, DOD nonnall y wi ll deploy a regionally-assign cd DCO to the JFO in order to
assist the FCO in coordinating DOD support, as requi red. A defense coordinal'ing element
(DCE) consistin g of appropriate staff elements and milit ary liaison offi cen; (LNOs) may
also be requested to assist the DCO in facilitating and coordinating potential DOD
support ."' -nle Marine Corps recognizes that it is within the authorit y of th e combat ant
                            Click to add JPEG file
commander to designate a IfF COlll111aJ1dcr. What is not clear, is how a DCO with
his/her 5-7 persons DCE would command a JTF aJId perform the DCO ' s primary
responsibilities in the JFO in the initi al criti c<l l houn; follow ing an incident. For example,
it is questionable that in OEF/O fF DOD would designate a JTF CDR as a NATO LNO-­
duties takin g him away from his command responsibilities.

TIle DCO docs not have command authority ovcr military forces that respond to a rcquest
for :lSSistaJ1 ce under DoD"s Immediate Response Authority or in accordance with DoD
lnstnlction 6055.6, DoD Fire and Emergency Services. AdditionaJly, it is within the
authority of an installation commander to provide a liaison to a local civilian Emergency
Operations Center (EOC) during <lnd inc ident. If the scale o f an incident requires a
Federal response and the establishment of <I Joint Field Office (JFO), Marine Forces
North will provide a Marine liai son to the DCO to provide advice on the employment of
USMC cupnbilities and to represent thc Murine Corps. US MC conununication and
coordination with the DCO will be via Marine Forces North in order to support the chain
of command and fac ili t.ate the fl ow of accumte infonnati on in both the: CCDR 's and
Sen /ice chain of commands.

Retract comment s in paragraphs 2.d .:md 2.c. of the .Marine Corps" initial conum.'1ltS.
MCl-West and II MEF prov ided heli copters and support to Task Force Bulldozer under
Immcdiate Response Authority, not a mutual aid agrccment.

                                      fo r Defense Support of Civil Authoriti es policy is
